<html>
<title> - NUCLEAR SECURITY: CAN DOE MEET FACILITY SECURITY REQUIREMENTS? (PART II)</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 NUCLEAR SECURITY: CAN DOE MEET FACILITY SECURITY REQUIREMENTS? (PART 
                                  II)

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2004

                               __________

                           Serial No. 108-237

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-131                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 22, 2004....................................     1
Statement of:
    Garman, David, Under Secretary, Office of Energy, Science and 
      Environment, Department of Energy; and Glenn S. Podonsky, 
      Director, Office of Security and Safety Performance 
      Assurance, Department of Energy............................   052
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. General Accounting Office, accompanied by 
      Jonathan Gill, Senior Analyst, Natural Resources and 
      Environment; and Danielle Brian, executive director, 
      Project on Government Oversight............................    13
Letters, statements, etc., submitted for the record by:
    Brian, Danielle, executive director, Project on Government 
      Oversight, prepared statement of...........................    32
    Garman, David, Under Secretary, Office of Energy, Science and 
      Environment, Department of Energy, prepared statement of...    54
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. General Accounting Office, prepared 
      statement of...............................................    16
    Podonsky, Glenn S., Director, Office of Security and Safety 
      Performance Assurance, Department of Energy, prepared 
      statement of...............................................    67
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
 NUCLEAR SECURITY: CAN DOE MEET FACILITY SECURITY REQUIREMENTS? (PART 
                                  II)

                              ----------                              


                         TUESDAY, JUNE 22, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Duncan, Kucinich, 
Maloney, Ruppersberger, Tierney, and Watson.
    Staff present: Lawrence Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Robert Briggs, 
clerk; Will Knight, intern; Andrew Su, minority professional 
staff member; and Cecelia Morton, minority office manager.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Nuclear Security: Can DOE Meet Facility 
Security Requirements? (Part II)'' is called to order.
    This is our third hearing on Department of Energy [DOE] 
efforts to secure the Nation's far-flung nuclear weapons 
complex against the threat of terrorism. Previous testimony 
described substantial institutional, technical and fiscal 
challenges faced by efforts to develop and implement the 
strengthened security standard called the design basis threat 
[DBT].
    The General Accounting Office [GAO] reported it took too 
long to formulate the new DBT, that it fails to capture some 
elements of the threat, and that the lack of a Department-wide 
strategy means implementation will take longer and cost more 
than planned. Nevertheless, witnesses pointed to tangible 
progress toward consolidation of nuclear material and 
strategies to deny even determined terrorists any access to 
weapons components.
    But we did not hear testimony on the status of physical 
security enhancements at the five sites outside the active 
weapons complex managed by the Department's Office of Energy, 
Science and Environment [ESE]. As the DOE National Security 
Administration [NNSA] succeeds in hardening current weapons 
production facilities and labs, ESE sites could pose increased 
risk as the next tier of soft targets for terrorists following 
the path of least resistance.
    While recent consolidation of DOE-wide security policy and 
oversight functions offers the prospect of consistent DBT 
implementation, GAO today reports ESE sites face some unique 
challenges keeping pace with their NNSA counterparts. 
Reassessment of the risk that highly enriched uranium or 
plutonium at ESE sites might be fabricated into an improved 
nuclear device could render current security plans inadequate. 
Any revision to the DBT could trigger a time-consuming 
reassessment of all security plans. Already, the pace and cost 
of security strategies seem so uncertain that one site 
requested no funding at all for DBT implementation this fiscal 
year.
    The good news is the stringent requirements of the new DBT 
appear to have transformed possession of special nuclear 
materials from a prestigious credential to a serious liability. 
Facilities now have a powerful incentive to blend down or 
consolidate dangerous stocks. But complex management 
structures, jurisdictional stovepipes and the resultant lack of 
clear lines of authority for clear DBT-related activities 
create unique barriers to strengthening security at ESE sites. 
And answering the vexing question ``How much security can we 
afford?'' becomes even more difficult when evaluating the cost/
benefit yield of capital improvements and security enhancements 
at decommissioned facilities DOE hopes to close sooner than 
later.
    We are grateful for the time and expertise made available 
to the subcommittee today by representatives from the 
Department of Energy, the General Accounting Office, and the 
Project on Government Oversight. We particularly appreciate the 
patience and forbearance of our DOE witnesses who agreed to 
forgo their customary place on the first panel. Their 
forbearance and willingness to listen will allow them, and us, 
to engage in more meaningful and constructive dialog.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7131.001
    
    [GRAPHIC] [TIFF OMITTED] T7131.002
    
    Mr. Shays. With that, I welcome all our witnesses and now 
turn to the ranking member, Mr. Kucinich. I appreciate your 
presence here today, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. Good 
morning, and thank you for holding this important hearing.
    Terrorist threats to all of our Nation's nuclear assets are 
both real and constant. According to the report of the 9/11 
Commission released last week, we now know that Khalid Sheik 
Mohammad proposed using planes to attack 10 U.S. targets, 
including unidentified nuclear power plants. To think that 
millions of Americans could be affected by a terrorist attack 
at a nuclear power plant is indeed a startling and sobering 
notion.
    It has been nearly 3 years since the tragic events of 
September 11. Since that time, the U.S. military has entered 
into Afghanistan and Iraq; the U.S. Congress created the 
Department of Homeland Security and the U.S. Northern Command 
has worked with them to coordinate homeland defense missions; 
security has been increased at our Nation's borders and 
airports; even protective barriers and security measures are 
being installed around this Capitol. Yet, the Department of 
Energy continues to lag behind the rest of the Government in 
its terrorism preparedness measures, especially at DOE 
facilities containing nuclear weapons and category I special 
nuclear materials, the most sensitive assets in the DOE 
inventory.
    This is the third hearing that this subcommittee has held 
on the implementation of the design basis threat, which guides 
security measures at DOE nuclear sites, and we continue to hear 
the same problems over and over: Why did it take the Department 
21 months to develop a new design basis threat plan and why is 
it taking DOE so long to implement the plan?
    According to the General Accounting Office, serious 
improvements must be made at each of DOE's category I nuclear 
sites in order to meet the 2006 DBT implementation deadline. I 
also understand that because of concerns raised by the 
subcommittee and by GAO, the May 2003 DBT is currently under 
review again, and protection strategies and guidelines may need 
to be altered once more. Meanwhile, the level of protection at 
our Nation's nuclear sites may be inadequate.
    Where is the Department's sense of urgency? The lengthy DBT 
review process, the lack of coordination among DOE offices, 
sites and contractors, and the lack of funding needed to 
implement the DBT is just unacceptable. While I understand that 
the consolidation, transportation, reinforcement, and 
protection of nuclear assets located at multiple sites are 
logistically difficult and time-consuming, we simply cannot 
afford any more delays.
    I am hopeful that Secretary Abraham's announcements last 
month, that these scattered assets will be consolidated in just 
a few modernized and highly secure sites, and that DOE is 
examining ways to create elite Federal forces to provide 
enhanced security around them, will be in effect. This 
cooperation among sites, strategic thinking from Department 
leadership, and emphasis on efficiency must continue not just 
for the latest DBT plan, but also for long-term interagency 
projects such as the proposed nuclear waste repository.
    My colleague, Congresswoman Shelley Berkley of Nevada, has 
introduced H.R. 2926, the Nuclear Waste Terrorist Threat 
Assessment and Protection Act, which would require a terrorist 
threat assessment of the Yucca Mountain project before it is 
approved. That project, as you know, involves 77,000 tons of 
high-level nuclear waste transported from 131 sites nationwide 
through 43 States in as many as 360 congressional districts for 
the next 30 to 40 years. Certainly, any part and parcel of that 
route could be a terrorist target, and it is important that DOE 
and Congress continue to work together to protect our nuclear 
assets.
    And, in effect, Mr. Chairman, I would respectfully suggest 
that until there is an appropriate design threat basis with 
respect to the movement of such nuclear waste, and until there 
is an appropriate way of securing that waste to protect against 
potential terrorist attacks, that nuclear waste should not be 
moved. Mr. Chairman, I hope that we will finally get some clear 
answers to some of these problems at DOE which have left our 
Nation's most sensitive nuclear facilities vulnerable to 
terrorism.
    I want to thank the Chair again for his continued 
leadership on this issue. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T7131.003

[GRAPHIC] [TIFF OMITTED] T7131.004

[GRAPHIC] [TIFF OMITTED] T7131.005

[GRAPHIC] [TIFF OMITTED] T7131.006

[GRAPHIC] [TIFF OMITTED] T7131.007

    Mr. Shays. I thank the gentleman.
    At this time the Chair would turn to Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate your 
holding this hearing and your continued focus on the safety of 
our nuclear weapons complex and our nuclear material.
    Last year I had the opportunity to travel with our chairman 
to several of our U.S. nuclear weapons storage facilities or 
nuclear material storage facilities, and the need for security 
improvements was very evident, and DOE needs to make security 
enhancements a priority.
    One of the most troubling things in this discussion is we 
are not just talking about timeframes and can all of the 
security enhancements be done in a sufficient time. We are also 
discussing the issue of whether or not the design base threat, 
the goal, the target that we are trying to achieve has been set 
at a high enough mark so that we can all be confident that 
these facilities and these complexes will be secure.
    In an issue where we have an ability to have no margin of 
error, it is essential that we make certain that we set a high 
enough target and that we diligently pursue it. I have wondered 
often, as we have sat through these hearings and I have 
participated with the chairman in the tours, as to whether or 
not we have been reluctant to use certain types of weapons 
systems to protect these facilities that at many times we have 
deployed for national monuments such as the Washington 
Monument. In looking at what is our design base threat, what we 
are willing to do to protect these facilities, I think we have 
been far too timid. And I appreciate the information that we 
are going to receive today from the people who have the 
responsibility for making certain that we keep these facilities 
safe.
    Thank you.
    Mr. Shays. I thank the gentleman.
    At this time, I would ask unanimous consent that all 
members of the subcommittee be permitted to place an opening 
statement in the record, and that the record remain open for 3 
days for that purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    At this time we would recognize our panel. We have Robin 
Nazzaro, Director, Natural Resources and Environment, U.S. 
General Accounting Office, accompanied by Jonathan Gill, Senior 
Analyst, Natural Resources and Environment; and also we have 
testimony from Danielle Brian, executive director, Project on 
Government Oversight [POGO].
    If anyone else may be testifying, I would ask them to stand 
up. If it is just the two of you, as well as Ms. Brian, we will 
ask you to stand, raise your right hands, and I will swear you 
in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    Before taking testimony, Ms. Watson, welcome. If you would 
like to make a statement, we would enjoy that.
    Ms. Watson. Thank you, Mr. Chairman. Appreciate it. I just 
have a few observations that I would like to share with you, 
and based on the vast amount of critical assets entrusted to 
the Department of Energy, I am particularly concerned with the 
Department sites that contain nuclear material, and their 
vulnerability to attack. As a member that represents Los 
Angeles, an area of the Nation we have learned that was a 
potential target for the September 11 attacks, I want to assure 
that we are doing everything possible to protect all our 
nuclear facilities, not only in that area, but throughout the 
country. I am particularly concerned with the length of time it 
will take to execute the design basis threat implementation 
plan. Given the current security environment, it is imperative 
that all vulnerable sites have no security glitches. And I want 
to be confident that our Nation does not get harmed again by 
any entities that sit right in our own backyards. All facets of 
law enforcement, in conjunction with the Department of Energy, 
should be mindful of possible sites of terrorist attack and be 
confident that all preventative measures have been taken to 
protect the citizens of this country.
    As we speak, I think the Director of the Homeland Security 
is in Los Angeles, and a few months ago, as we had a panel that 
laying out plans should there be a threat, I saw where they 
used the word ``traditional.'' Well, what we have done 
traditionally is not what we should be doing now and in the 
future, so I hope we can come up with creative ways to address 
securing these facilities. Think out of the box.
    So I look forward to hearing from the panel, and thank you 
very much, Mr. Chairman.
    Mr. Shays. I thank you, Ms. Watson.
    We will start hearing testimony. Ms. Nazzaro.

STATEMENTS OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
     JONATHAN GILL, SENIOR ANALYST, NATURAL RESOURCES AND 
ENVIRONMENT; AND DANIELLE BRIAN, EXECUTIVE DIRECTOR, PROJECT ON 
                      GOVERNMENT OVERSIGHT

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss our work 
on physical security at the Department of Energy's Office of 
Energy, Science and Environment [ESE]. ESE is comprised of nine 
offices, including the Offices of Environmental Management; 
Nuclear Energy, Science and Technology; and Science, which have 
sites that contain category I special nuclear material.
    On April 27, 2004, we testified before this subcommittee on 
several key aspects surrounding DOE's development and 
implementation of the 2003 design basis threat. Specifically, 
we noted that DOE had been slow to develop DBT implementation 
plans and the budgets to support these plans. As a result, the 
Department's deadline to meet the requirements of the new DBT 
by the end of fiscal year 2006 was probably not realistic for 
some sites.
    Subsequently, you asked us to examine in more detail the 
issues that could impede ESE's ability to fully meet the threat 
contained in the new DBT. After reviewing ESE's efforts to 
implement the May 2003 DBT at sites containing category I 
special nuclear material, we continue to be concerned about 
whether DOE can meet its fiscal year 2006 deadline for full 
implementation of the DBT. ESE sites that contain category I 
special nuclear material have developed plans for implementing 
the DBT. However, we believe there are four issues that will 
make it difficult to implement these plans in a timely fashion.
    First, ESE sites approved their implementation plans in 
February 2004, before the Deputy Secretary of Energy issued his 
guidance on which sites had improvised nuclear device 
vulnerabilities. ESE security officials told us that confusion 
exists about how or if this guidance applies to their sites. 
They are working with officials from DOE's Office of Security 
to resolve this confusion. However, the Director of DOE's 
Office of Security and Safety Performance Assurance agreed that 
additional guidance will be necessary to resolve this 
confusion. Consequently, the assumptions in the plans may no 
longer be valid and the plans may need to be revised, which 
could be very costly.
    Second, the ESE implementation plans are based on the May 
2003 DBT. As you mentioned, DOE is now reexamining that DBT and 
may revise it. Consequently, if the DBT is changed in a way 
that increases security requirements, some ESE offices may have 
to revise their implementation plans to reflect these changes.
    Third, the plan for one ESE site is underfunded. Officials 
in the Office of Nuclear Energy, Science and Technology told us 
that for one site no DBT implementation funding had been 
requested for fiscal year 2005, even though the site recognized 
that it needed to substantially increase its protective forces 
to meet the new DBT.
    Finally, ESE faces a number of complex organizational 
issues that could make DBT implementation more difficult. I 
will give you three examples here. For the Office of 
Environmental Management to fully comply with the DBT 
requirements in fiscal year 2006, one of its sites will have to 
close and de-inventory two facilities, consolidate excess 
materials into remaining special nuclear materials facilities, 
and move material, which the National Nuclear Security 
Administration's Office of Secure Transportation will transport 
to another site. Because the cost to close these facilities and 
to move the materials within the site are borne by the Office 
of Environmental Management's program budget, and not by its 
safeguards and security budget, obtaining adequate funding 
could be difficult.
    At an Office of Science site, a building that contains 
category I special nuclear material is managed and protected by 
the Office of Science, while the material itself belongs to the 
Office of Nuclear Energy, Science and Technology. This office 
is currently planning to move the material and process it. 
After processing, the material will no longer have to meet the 
protection requirements for category I special nuclear 
material; however, accomplishing this task will require 
additional security measures, the planning and funding for 
which will have to be carefully coordinated with the Office of 
Science.
    The Office of Nuclear Energy, Science and Technology sites 
face similar issues. For example, the Office of Environmental 
Management currently owns all of the category I special nuclear 
material stored at one of the Nuclear Energy, Science and 
Technology sites. Environmental management is currently 
planning to have the National Nuclear Security Administration's 
Office of Secure Transportation transport this material to 
several other locations by the end of January 2005. The Office 
of Nuclear Energy, Science and Technology also needs to 
consolidate two of its sites into a single national laboratory, 
which will, among other things, ensure that it has an adequate 
number of protective forces. If the special nuclear materials 
are not moved and this consolidation is not achieved, the 
number of protective forces at this site may not be adequate.
    Because of the importance of successfully integrating 
multiple program activities with security requirements, we 
continue to believe, as we recommended in April 2004, that DOE 
needs to develop and implement a Department-wide, multi-year, 
fully resourced implementation plan for meeting the DBT 
requirements that includes important programmatic activities 
such as the closure of facilities and the transportation of 
special nuclear materials.
    Mr. Chairman, that concludes my prepared statement. We 
would be happy to answer any questions you or members of the 
subcommittee may have.
    [The prepared statement of Ms. Nazzaro follows:]

    [GRAPHIC] [TIFF OMITTED] T7131.008
    
    [GRAPHIC] [TIFF OMITTED] T7131.009
    
    [GRAPHIC] [TIFF OMITTED] T7131.010
    
    [GRAPHIC] [TIFF OMITTED] T7131.011
    
    [GRAPHIC] [TIFF OMITTED] T7131.012
    
    [GRAPHIC] [TIFF OMITTED] T7131.013
    
    [GRAPHIC] [TIFF OMITTED] T7131.014
    
    [GRAPHIC] [TIFF OMITTED] T7131.015
    
    [GRAPHIC] [TIFF OMITTED] T7131.016
    
    [GRAPHIC] [TIFF OMITTED] T7131.017
    
    [GRAPHIC] [TIFF OMITTED] T7131.018
    
    [GRAPHIC] [TIFF OMITTED] T7131.019
    
    [GRAPHIC] [TIFF OMITTED] T7131.020
    
    Mr. Turner [assuming Chair]. Thank you.
    Ms. Brian.
    Ms. Brian. As we prepared this testimony, it was striking 
to hear members of the 9/11 Commission last week come to the 
conclusion that no policymakers were aware that terrorists 
might hijack commercial aircraft and fly them into buildings. 
In fact, however, POGO had released to the public an internal 
NORAD e-mail which showed that NORAD had developed a scenario 
in April 2001 of a commercial airliner being hijacked and flown 
into the Pentagon, just 5 months before terrorists hijacked a 
commercial airplane and flew it into the Pentagon. This 
scenario was rejected at the time by the staff of the Joint 
Chiefs as being ``unrealistic.''
    I feel certain that if a future devastating attack were to 
take place at one of the Department of Energy's nuclear weapons 
facilities, policymakers would again claim that no one knew 
that a terrorist could have attacked one of these facilities 
and created an improvised nuclear device, a nuclear detonation. 
Your hearings have been laying the groundwork to make it harder 
for them to make this claim.
    In January 2004, DOE Secretary Abraham, Deputy Secretary 
McSlarrow, and Oversight Director Podonsky began a dialog with 
POGO regarding our recommendations for security upgrades. Since 
then, we have been cautiously optimistic the DOE may be turning 
the corner. The Secretary's May 7th speech further reassured 
us. This is the first time a DOE secretary has recognized and 
admitted the problems and the extent of the changes necessary 
to provide adequate security in the weapons complex.
    POGO believes Secretary Abraham and Deputy Secretary 
McSlarrow are sincerely concerned about the state of security 
in the complex; however, these officials have a limited time in 
office.
    We are not sanguine that the agenda outlined by the 
Secretary will become a reality. He will need to fight the 
weapons complex bureaucracy and its contractors, who are 
professionals at preserving the status quo.
    And I wish I shared the optimistic of Chairman Shays when 
he was talking about the improvements at NNSA sites. I actually 
received a call last night, at about 11, from Los Alamos, where 
I learned that the site that we are all familiar with, TA-18 at 
Los Alamos, which is at the bottom of a canyon and everyone has 
agreed needs to be de-inventoried immediately, well, it turns 
out NNSA has essentially capitulated the responsibility of 
doing that back to the contractor at Los Alamos and waiting to 
hear from the contractor on their plans to move it.
    One particular problem that appears to be a complex-wide 
phenomenon is the huge amount of overtime the guards are 
working. Some security officers at Y-12 are working up to 90 
hour weeks. We have an internal Wackenhut document where the Y-
12 security manager threatens to fire an officer whose doctor 
temporarily limited the officer's work schedule to only a 55 
hour week after knee surgery. The security officer was forced 
to ask his doctor to retract this limitation or he would be 
fired. How can anyone claim with a straight face that people 
who are working 90 hours a week are alert enough to protect 
nuclear materials against a terrorist attack? While I know this 
hearing is focused specifically on Environmental Management, 
Science and Nuclear Energy sites, I think this phenomenon of 
dramatically overworking the protective forces deserves the 
committee's immediate attention.
    One disappointment of the Secretary's speech is that he did 
not address the security problems and lack of mission at 
Argonne West and Idaho National Engineering and Environmental 
Laboratory, the nuclear energy facilities that contain tons of 
highly enriched uranium and plutonium that are attractive to 
terrorists. There is no mission-related need for this large 
quantity of special nuclear materials for either of these 
sites. The cost of protecting these materials is huge: $40 
million a year. Two years ago, when Independent Oversight 
tested the security at Argonne West, where the majority of this 
material resides, they found security unsatisfactory. In other 
words, the facility was unable to protect adequately the tons 
of highly enriched uranium and plutonium. Since then, Argonne 
West has had even more problems, according to sources at the 
site as well as in Washington.
    For example, POGO has been told that Argonne West spends 
more money to protect the 7 to 8 tons of unneeded special 
nuclear material than it does on the program. However, there is 
a fear at the site that if DOE moves this unneeded material to 
a more secure location, the site might be shut down. 
Furthermore, POGO has been told by multiple sources that the 
guard force at Argonne West is 50 percent undermanned. In the 
last few weeks, another 10 percent of their guard force quit. 
Recently, Argonne West needed $1 million for quick security 
upgrades, but Headquarters Nuclear Energy refused them these 
funds. This is $1 million. It is not a lot in the DOE budget. 
Despite the required security upgrades after September 11, the 
increased DBT in spring 2003 and the Headquarters directive of 
April 5, 2004, to go to a denial strategy because of IND 
concerns, Argonne West has the same inadequate tactical 
response plan that they had before September 11.
    Argonne West is also having serious problems developing a 
new site security plan; they haven't been able to develop a 
credible vulnerability assessment, they haven't performed 
computer simulations for security plans, limited scope 
performance tests, or full-up force on forces for several 
years. I recommend this subcommittee turn some of its attention 
directly to Argonne West. If this facility cannot protect the 
material, the material should be moved to a more secure 
location.
    While similar security inadequacies exist at Idaho National 
Engineering Lab, there are at least plans to de-inventory the 
category I materials from this site by the end of 2005. The 
problem, however, is that the plan is to move these materials 
to Argonne West.
    Similarly, Hanford, an environmental management site, is 
scheduled to be de-inventoried of all its category I materials 
by the end of 2005, which is a good thing, as they recently 
failed a force-on-force run by Independent Oversight, even 
after September 11 upgrades.
    Savannah River, another EM site, stores huge quantities of 
plutonium. As far as we can deduce, Savannah River does not 
suffer from the security failures we have uncovered at these 
other sites, as well as at most of the NNSA sites. The ongoing 
problem at Savannah River, however, is a history of unfulfilled 
promises to build an underground storage facility for the 
plutonium. Most of the plutonium at Savannah River is currently 
being stored in an old reactor building that was never meant to 
be a plutonium storage facility.
    We have not developed sources at Oak Ridge National Lab, 
the final science site with category I materials, which stores 
large quantities of uranium-233, so we can't comment on their 
security.
    Thank you again for asking me to testify and for sticking 
with this issue. I believe it is some of the most important 
work you will do in the Congress, and this subcommittee has 
been absolute leaders in taking on this very important job.
    [The prepared statement of Ms. Brian follows:]

    [GRAPHIC] [TIFF OMITTED] T7131.021
    
    [GRAPHIC] [TIFF OMITTED] T7131.022
    
    [GRAPHIC] [TIFF OMITTED] T7131.023
    
    [GRAPHIC] [TIFF OMITTED] T7131.024
    
    Mr. Turner. Thank you for your testimony and for your 
information on an issue that our chairman has been a leader in, 
in raising the awareness level. I also serve on the Armed 
Services Committee. I know that Chairman Everett, of the 
Strategic Forces Subcommittee, is similarly concerned, and 
fellow Iowan Dave Hobson, chairman of Energy and Water, has 
also been responding to Chairman Shays' interest in making 
certain that this not be an issue, as we had heard in the 
testimony, of money.
    One of the things that concerns me, as I said in my opening 
statement, is we do not have the option for any margin of error 
here. This is something that needs to be approached with the 
highest level of diligence, not the minimal level of diligence. 
Money is not an impediment or issue; it really is an issue of 
what the request is. When we have a definition of what is 
needed, there isn't anyone who would not make certain that all 
resources are provided to make certain that we have the 
protection level that we need for these resources that could be 
so deadly.
    Ms. Brian, as you said, one of the things that I think is 
most important here in these discussions is this is not 
theoretical. We know every day, and we can read the papers 
every day, that there are terrorist threats to our country and 
that these materials, being very deadly in their potential, 
would be a high value target, would be a likely target, and 
that our need to provide security for them should be of the 
greatest level of diligence. When I hear issues of the process 
of discussion whether a design base threat is high enough or 
whether or not we can meet 2006, it is very disturbing to me, 
because it seems to me as if this should be an issue of the 
design base threat being of the highest level. There shouldn't 
need to be a discussion of is it high enough; we shouldn't be 
asking do we have the capability to even get it higher. Are we 
constrained, either by science or technology, not to reach even 
higher; not do we bureaucratically believe we have taken into 
consideration what we need.
    And for the timeframes for 2006, our threat is now. So when 
I traveled with Chairman Shays to a few of the facilities under 
the control of DOE, of course, there was the discussion of the 
issue of the contract forces that were guarding the facilities, 
whether or not they had the resources necessary, whether they 
were receiving the support necessary. And there were the 
discussions, Ms. Brian, as you had said, of whether or not some 
of these facilities were insufficient just in design of 
themselves, and that materials needed to be relocated.
    But in looking at the issue of we need to do this now, the 
question came up, of course, of, well, what is the coordination 
between DOD and DOE. What do you see as the process of we have 
the design base threat and we are looking at how do we achieve 
it through 2006, but what do you see in DOE, in their efforts 
to say if we have a gap, if we have a need that is not being 
filled, where else can we get those resources now so that we 
are not just sitting through 2006 in a state of vulnerability?
    Ms. Nazzaro. DOE did take some initial steps after 
September 11th, and we reported on that last year when we were 
here, as far as adding additional guard forces, increasing 
perimeter security. We think that these steps were appropriate. 
We would also say that the sites are well defended right now 
and that they have taken some immediate steps. However, we 
certainly feel more can be done, and we certainly raised the 
concern that the design basis threat did not adequately portray 
the level of risk that potentially was threatening DOE 
facilities, particularly those that had special category I 
nuclear materials.
    Mr. Turner. In your answer you are talking about their 
internal efforts.
    Ms. Nazzaro. Right.
    Mr. Turner. But in listening to the discussion that we had 
while we were at some of these facilities, it did seem to me as 
if the discussions of the design base threat or the potential 
for protecting the facilities was limited based upon what DOE 
had within its control, and that there had not been adequate 
thought of to what extent do we need to go outside of DOE, to 
what extent do we need to work in conjunction with DOD to see 
how we can supplement, again, with my view of we cannot have 
any margin of error here, and supplement what we are doing; 
that bureaucratic wall of within DOD versus DOE and DOD 
protecting the American people. But that had not been 
coordinated. Do you have thoughts or views on what their 
efforts could be to better work together?
    Mr. Gill. Mr. Turner, all of the sites have a variety of 
memoranda of understanding and agreement with local law 
enforcement, FBI, FAA, and their higher level contacts as well, 
which I am sure DOE can talk about. But in their planning, they 
expect these attacks would be fast, they would be violent, and 
the sites would have to reply with what they have on hand. I 
think there are some problems with getting external responders 
into some of the sites because, as the subcommittee is aware, 
the guard force that works within the material access areas, 
where the special nuclear material is stored, are specially 
cleared and are enrolled in human reliability programs and they 
are very sensitive positions. So there is a real fear, for 
example, that a responding fire truck could be in fact a Trojan 
horse, that terrorists could actually use some external 
response as a way to gain access to the sites.
    So, from our experience in talking to sites, it has been 
very limited. There are agreements there, but in actual attacks 
they probably wouldn't have time to be implemented.
    Ms. Brian. Just to supplement that, our understanding, 
working with some of the special forces people who are trained 
in evaluating these kinds of attacks, they are usually over 
within 3 to 5 minutes. So we really do have to rely on the 
forces there to combat the terrorists.
    Mr. Turner. I appreciate your perspective. I still am 
concerned that there is not enough coordination and that, 
either onsite or external to the site, that the full options of 
the coordination have not been pursued. I appreciate your 
perspective that they are working in concert and that these 
attacks may occur quickly, but I do sense, whenever you begin 
down the process of questioning on the relationship between DOD 
and DOE, that there is not enough coordination. I appreciate 
your recognition that there is coordination and that they are 
working together, but I do fear that is an option that is not 
pursued as diligently as it could be.
    Ms. Brian. If I might add in terms of the issue of 
coordination, I think perhaps a more immediate concern is the 
coordination between the labs and the leadership at 
Headquarters. I think that what you have is some real direction 
from Headquarters and from the Secretary's Office, and once it 
trickles down to the labs, it is sort of like rice pudding or 
something, nothing really happens.
    Ms. Nazzaro. We would share Ms. Brian's concern in that 
regard, as far as coordination within DOE. That is certainly a 
first place to start. You may also want to raise the question 
with the DOE witnesses today. As they revisit the design basis 
threat, which is based on an intelligence community document, 
you may want to question as to what kind of coordination they 
are doing in developing the new DBT.
    Mr. Turner. Thank you.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. That kind of dovetails 
right into my question.
    On May 7th, the Department of Energy Secretary Spencer 
Abraham a series of new security initiatives. What enhancements 
are the DOE using now that differs from before? Enhancing these 
new initiatives, what is DOE doing?
    Mr. Gill. We are very positive on the initiatives in that 
they demonstrate a commitment, leadership, and an understanding 
of the issues. In terms of things that are brand new, I am not 
sure that there is all that much that wasn't going on at some 
level before. Efforts such as technology department, and the 
various cyber security issues, those have been around for a 
while. Reexamining the DBT, that is something new. I think 
there are some things that have emerged since September 11, and 
primarily those have to do with protective forces. And as Ms. 
Brian said, they have been working extraordinarily long hours, 
their training has suffered, and those issues have been on the 
table for a while, but they now have new urgency. And having 
previewed Mr. Podonsky's testimony on what they plan to do with 
the National Training Center and related activities, I think we 
view that as a very positive and needed activity. But the 
initiatives, on the whole, are a mixture of things that have 
been on the table for a while, and other things that were known 
about for a while but have assumed new urgency since the events 
of September 11th.
    Ms. Watson. I was concerned by Ms. Brian's report that 
there are people working unbelievable hours, and to do 
something about that I would hope would be the first step, 
because as I look at homeland security, I don't look at the 
land, I look at the people on the land. And should they not be 
capable, the man who had knee surgery, it doesn't make sense, 
they ought to have rotating teams. So I don't know if you care 
to be more specific at this time, and maybe you don't have the 
specifics, but what are some of those changes that they are 
highlighting at the current time, and do they fit in with what 
has been reported to us?
    Ms. Nazzaro. As to things that have happened since the 
Secretary's announcement, I would say mostly what they have 
done is identified what issues could impact the implementation 
of the DBT, what issues could impact their security, and mostly 
they have been studying these issues.
    Ms. Watson. Well, you know, what I am hearing is that we 
are kind of bogged down. You know, when you don't want to deal 
with something, you study it. How can we move in? I don't think 
we have a whole lot of time, and every time we heighten the 
color coded alerts, they say you need to be alert, but go on 
about your everyday business. Well, that is for the general 
public. For Government, we need to be doing something now. 
Post-September 11 I heard, and I am sure my colleagues did too, 
that they were going to use planes in buildings. Well, how 
ridiculous that seemed, that should have been a clue to kind of 
look in and see what the feasibilities are.
    So I am just kind of concerned that we are studying, 
studying, studying, but we are not moving, moving, moving. And 
the people who feel that we are their enemy are planning, 
planning, planning, and I do feel attacks are imminent. So we 
have to move. We can't move with the sluggishness of 
bureaucracy.
    I am not aiming that at you, I am just kind of relieving 
some of my frustration.
    Ms. Nazzaro. Well, we share your concern, and one of the 
early concerns we had was that it took them 2 years to even 
develop a design basis threat after September 11th. At the 
hearing in April we did raise a concern that we felt that a lot 
of the initiatives were to develop plans, and we didn't see 
implementation yet. However, we also want to point out that we 
would like DOE to do it right. We had major concerns with the 
design basis threat as it was developed in May, and so we do 
think that this is a positive step to be revising that, but we 
would like to move beyond plans as well. And as Mr. Gill 
mentioned, we did preview Mr. Podonsky's statement, and we are 
concerned with the statement. They are saying that some of 
these initiatives would take anywhere from 90 days to a number 
of years.
    Ms. Watson. Well, in response--you don't even have to 
respond--we don't have that kind of time.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. Ruppersberger.
    Mr. Ruppersberger. I would like to go down another avenue: 
the issue of the 2-years and why it took 2 years, and some of 
the reasons for that. And I want to focus on the area of 
intelligence and the fact that you feel, at this point, and one 
of the reasons that, I think in your report, it took 2 years 
was because of lack of coordination with the intelligence 
community.
    Now, do you feel that the intelligence community has not 
been able to get their act together in order to help the 
Department of Energy as it related to the postulated threat?
    Mr. Gill. We did not evaluate the quality of the 
intelligence or the quality of the postulated threat. We 
believe that was beyond our capability. What we noted was that 
the Department of Energy has traditionally used the postulated 
threat, which is a product of the intelligence community plus 
the security organizations of the Department of Energy, NRC, 
and other Government organizations, for the basis of their 
design basis threat. There is no question that the development 
of the postulated threat was delayed for a number of months, 
primarily for two reasons: (1) because of Afghanistan and 
planning for Iraq put other demands on the intelligence 
community, and (2) there were sharp debates among the 
participants in the postulated threat over terrorist 
capabilities. If you read the postulated threat, you will see 
that the sole point of disagreement in the postulated threat 
were the capabilities of terrorists.
    Mr. Ruppersberger. Let us get to the bottom line. We have a 
9/11 Commission that is making a lot of recommendations right 
now. Whatever department you are in, wherever we are, the 
bottom line is national security. And it seems to me that you 
cannot develop a postulated threat or a plan unless you are 
working very closely with the intelligence community.
    Now, No. 1, the intelligence community has to get their act 
together, and that is one of the subjects that is being dealt 
with right now with the 9/11 Commission and some other 
committees that are looking into that. But when it comes down 
to the issue and the threat of terrorism, you have to, in my 
opinion, have the intelligence community involved and giving 
you information, because there is also a lot of flexibility and 
a lot of new information that is coming.
    At this point, we need to have more information and work 
more closely with the intelligence community in order for DOE 
to be able to protect the facilities from a nuclear attack? I 
mean, the postulated threat talks about the terrorists and 
identifying who they are, whether there have been thefts of 
certain materials, all of those different issues. I don't see 
how you can do one without the other. So my question what do 
you feel needs to be done within the intelligence community in 
order to get that information to DOE so that they can do what 
they need to do to protect our nuclear facilities. Long 
question, but it is important.
    Mr. Gill. Yes, sir. We really are not able to address what 
the intelligence community needs to do; we did not look at that 
in detail. What I can say about it is that we believe there was 
a general undercurrent of dissatisfaction regarding the 
postulated threat within the Department of Energy. I think the 
subcommittee has looked at this issue as well, and there are 
some questions about the applicability and the quality of the 
postulated threat, and whether in fact that was an adequate 
document on which to base the design basis threat on.
    Mr. Ruppersberger. But from what you have seen, how can you 
have one without the other?
    Ms. Nazzaro. Well, you can't have one without the other. 
And historically DOE has based its design basis threat on the 
postulated threat. But this year there was a difference between 
the two documents, and that is why we say there is a continuing 
disagreement, obviously, between DOE and the intelligence 
community as what the level of threat actually is. As to their 
current level of cooperation and coordination with the 
intelligence community, DOE might be in a better position to 
let you know whether they are getting cooperation.
    Mr. Ruppersberger. You know, one of the biggest issues 
right now, after September 11, is the issue of integration, is 
that so NSA communicates with CIA, CIA with FBI. I mean, 
Department of Energy needs to be at the table because of what 
it represents and how it deals with our national security. So I 
would suggest that we refocus on where we are with respect to 
the intelligence community helping DOE, because it is just one 
component. Whether or not it is a nuclear facility or it is an 
office building or airplane, whatever it is, it is all national 
security, and I think we are getting caught up in our 
bureaucratic issues, and especially with DOE. I see in a report 
that DOE had a problem themselves of finding where they even 
needed to go, and it took 2 years, because of the bureaucratic 
debates that were going on, that they couldn't come to a 
conclusion themselves. Now, how they cannot come to an 
assessment or look at the postulated threat without getting all 
of the information from the intelligence community is beyond 
me.
    Let me ask this one question. As a result of the 9/11 
Commission, there is a suggestion that you have one person who 
oversees all of the intelligence community, and that would 
include the Department of Defense, all of the different areas. 
Do you think that by having that one person--because I notice 
here you have budgetary issues too--that would oversee all of 
budget, that would help pull all of this? Because DOE is a part 
of the intelligence threat because of what it represents, 
especially in the nuclear area. Do you have any opinion on 
that?
    Ms. Nazzaro. We did not assess that, but I will say GAO, in 
general, supports coordination of efforts to avoid overlap and 
duplication, and so I would say in general, yes, we would agree 
with that statement.
    Mr. Ruppersberger. OK. Thank you very much.
    Ms. Brian. Congressman, if I could just add with regards to 
your concerns, I would hate, however, as obviously the point 
that you are making, I would hate DOE to get a pass in saying 
that their failures are because they aren't getting good enough 
intelligence. I mean, I think the reality is once the 
intelligence came to them, they did not hit the ground running 
at all. And, in fact, what we find is in the beginning, in 
fact, the real issue, they were arguing against the DBT that 
was indicated by the postulated threat because they didn't want 
to spend that much money on it. So I think there are multiple 
layers of problems.
    Mr. Ruppersberger. I agree. There are no passes to be had. 
There needs to be integration on both sides of the aisle.
    Ms. Watson. Would you yield for a moment?
    Another question. Tom Ridge, as I mentioned, is out in 
California. What role does he play in terms of looking at all 
the various departments, heightening the alert, and having 
certain things happen? I am not clear on how this all gets 
coordinated. My colleague just asked about intelligence. It 
seems to be just each department does their own thing. There 
has to be collaboration. So can you respond, any one of you?
    Ms. Nazzaro. Well, there certainly has to be collaboration, 
and the Department of Energy was involved in the development of 
the postulated threat; they were one of the parties that helped 
in the formulation of that. So there is coordination and there 
is the collaboration of the various departments. However, as to 
what came out of the postulated threat, there was a 
disagreement; the Department of Energy did not agree with it 
and they did develop their own design basis threat, in 
accordance, which we had a problem with.
    Mr. Gill. I am not sure how much the Department of Homeland 
Security have really added to Department of Energy Security in 
that DOE has had a mature security organization for years while 
Homeland Security is new. The single most visible and expensive 
impact DHS has is when DHS changes the national threat warning 
level. The DOE equivalent, their security condition measures, 
change according to the national level. So, for example, at the 
national current level we are at, DOE is at what they call 
SECON 3. They move to SECON 2, when the national level moves to 
orange level. It has a profound impact on DOE operations and 
costs them an enormous amount of money per day to implement 
those additional measures.
    Ms. Watson. We folded a lot of the various funding sources 
into and under Tom Ridge when we were formulated the Department 
of Homeland Security. Do you know if these various departments 
had their budgets cut in order to put money into Homeland 
Security? And to address the question that was raised a minute 
ago, should there be one person at the top to see that this 
coordination gets done? I would have thought that would have 
been Tom Ridge's job.
    Mr. Gill. I am not sure about that one. What I can say is 
that the Department of Energy Safeguard and Security budget has 
grown substantially over the past several years, so DOE has not 
been losing money to Homeland Security. DOE has had real budget 
growth.
    Ms. Watson. But I do know that the various departments did 
take a portion, depending on what kind of services and tasks 
were put under Homeland Security. So I don't hear what the 
coordination is and if all these departments are talking and 
sharing with each other.
    Ms. Nazzaro. I believe for the Department of Energy those 
were research capacities that were transferred to Homeland 
Security, it was not their security budget. Security forces 
were not transferred to Homeland Security.
    Mr. Gill. There were some research capabilities at Lawrence 
Livermore National Laboratory, that are now part of Homeland 
Security.
    Ms. Watson. Thank you.
    Mr. Turner. Mr. Ruppersberger, actually, Ms. Watson had not 
exhausted her time beforehand, so if you have additional 
questions.
    Mr. Ruppersberger. No, I am fine.
    Mr. Turner. OK. Then we will go to Mr. Tierney.
    Mr. Tierney. Thank you.
    Ms. Brian, how are you? Thank you once again for coming to 
Newburyport, MA recently to address a group up there.
    Ms. Brian. It is a gorgeous town.
    Mr. Tierney. It is, thank you.
    I thank the other witnesses for being here this morning.
    Let me ask a question. I am looking at the GAO report and 
the three reasons why the Department of Energy departed from 
the postulated threats assessment, and I would like to go over 
each one and have all the witnesses speak to how reasonable 
they think these reasons were.
    One of the reasons the officials said that they deviated 
was because they believe the postulated threat applied only to 
threats that handled completed nuclear weapons and test 
devices. How reasonable was it for them to have reached that 
conclusion, Ms. Nazzaro?
    Ms. Nazzaro. We disagreed with that assessment, and what we 
felt was that the Department did not do an adequate job of 
justifying why they were differentiating between sites that had 
nuclear weapons and those that had nuclear materials.
    Mr. Tierney. And did you ever get to form an opinion as to 
why they had made that conclusion as opposed to what I know 
later in your report it indicates you thought was clearly in 
the postulated threat?
    Ms. Nazzaro. No, we have not, and we understand that is 
part of the reason why DOE has accepted our recommendation to 
revisit the design basis threat.
    Mr. Tierney. Ms. Brian.
    Ms. Brian. We agree with the GAO that the threat of an 
improvised nuclear device should really be the standard of 
whether a site should be reaching the highest levels of 
security, and not whether there is a full-up weapon there.
    Mr. Tierney. Well, their second reason was that they 
believe that the higher threat levels contained in the 
postulated threat represented the worst potential worldwide 
terrorist case over a 10-year period. How were they off the 
mark on that and why do you think that they were off the mark?
    Ms. Nazzaro. Again, we did not assess the adequacy of the 
DBT. What we were concerned was that they did not provide any 
justification as to why they were deviating from the 
intelligence community's input and why they came up with their 
own assessment. And, again, they are revisiting the DBT and I 
would assume that this is another issue that they are taking 
into consideration.
    Mr. Tierney. I don't mean to put you on the spot, but I 
look at these reasons or excuses and they don't seem to be very 
well founded, at least the way that you have laid them out 
here. If we are being frank, are saying that we think they just 
gave us somewhat of a reason that hit them on the top of the 
head, that they just decided to go their own way and had no 
justification for why they did it other than that they found 
some expedience in doing that?
    Ms. Nazzaro. Well, our concern was that there was no 
justification for these deviations other than that we 
understand there were serious concerns over budget, as to 
whether they would have enough money to be able to implement 
the new design basis threat. However, that has been disputed by 
the Department of Energy.
    Ms. Brian. I would respond to that comment that actually 
these facilities represent the worst possible vulnerability, 
really, that is housed in the entire country, and so we would 
want them to be facing the worst possible threat in order to 
protect against that potential vulnerability.
    Mr. Tierney. And I won't go around. I just note that the 
last reason they gave for it was they just didn't really think 
that this was anything more than a guide, a reference guide, 
which I think clearly is specious. I think that this committee 
ought to be a little concerned that the Department of Energy is 
throwing out those reasons for not following something as 
serious as the postulated threat and getting to a DBT that 
makes some sense there.
    I understand, however, the budgetary problems, and I know 
that at one point the Secretary submitted a rather large budget 
to protect some of these nuclear facilities, and the Office of 
Management and Budget overruled it. And I think that we ought 
to take a look at that also in terms of what my colleague 
mentioned a little earlier, as to just who is going to make 
these decisions on the Department of Homeland Security issues 
in terms of the budget. If we are not going to have one person 
that can override the Office of Management and Budget, how are 
we going to get a national security posture here that really 
does identify what our threats are and what our risks are, and 
prioritizes them and makes sure that our resources get there? 
And if we are going to have Department of Energy people 
identifying them, or at least be encouraged to identify them, 
they ought not to be held back by the fact that they don't 
think they are going to get the money or they are going to be 
overruled. And I think that is probably where a lot of this 
comes into play.
    So to what extent do you as witnesses think that the 
budgetary concerns affected the implementation of the DBT? Do 
you think that was the overriding concern or do you think it 
was only one of several concerns?
    Ms. Nazzaro. I would say we certainly think that was an 
overarching concern, that they looked at the extent to which 
they could implement the design basis threat. We feel the 
design basis threat should identify the threat, then DOE can 
decide what level of risk they are willing to take if they 
can't fund the whole thing.
    Mr. Tierney. Well, it would seem to me that you at least go 
for all of it and what it is going to cost, and then fight like 
heck for the money.
    Ms. Nazzaro. Correct.
    Mr. Tierney. And then if you don't get the money, then you 
may have to scale back or whatever.
    Ms. Nazzaro. Then you scale back and decide where you want 
to take risks, where you can logically take a risk, but at 
least accept and acknowledge that you are taking a risk.
    Mr. Tierney. I am concerned here that there are some 
politics involved here, that we have only got so much money 
because we are running this deficit that is outrageous, and 
then trying to back everybody in to not complain too much and 
just bring themselves within those numbers, and I think that is 
a serious, serious danger in this country.
    Ms. Brian, do you want to add something to that?
    Ms. Brian. My one comment at the time when that happened 
with OMB, I think the dynamics were slightly different, and 
what you had was a Department of Energy that was reporting to 
the Congress that everything was fine, security was good, and 
then out of the corner of their mouth they go to OMB and say, 
but we need this critically important money right now. And I 
think they were really speaking out of two sides of their mouth 
at the time, and at least I think we are getting some change in 
that DOE is not pretending that everything is all right 
anymore.
    Mr. Tierney. Thank you.
    Mr. Ruppersberger. Would the gentleman yield?
    Mr. Tierney. I will yield.
    Mr. Ruppersberger. Just one question on this issue of 
budgeting. Do you have an opinion whether or not the fact that 
DOE was having budgetary problems because more resources are 
being put into homeland security and the money just isn't 
getting filtered back? That seems to be a pattern in a lot of 
departments right now. Do you have an opinion as it relates to 
DOE?
    Ms. Nazzaro. I would have no basis to make that assessment.
    Ms. Brian. Nor I.
    Mr. Ruppersberger. OK. Thank you.
    Mr. Tierney. I yield back.
    Mr. Turner. Mr. Chairman.
    Mr. Shays. Thank you.
    Let me just run through a number of questions the 
subcommittee would like to have answered. This is for primarily 
Ms. Nazzaro or Mr. Gill, but, Ms. Brian, jump in at any time.
    How optimistic are you that the ESE will make the 2006 
deadline for DBT implementation?
    Ms. Nazzaro. We do not feel that is realistic at this point 
because of a number of factors that we mentioned this morning, 
primarily that they are revisiting the DBT. ESE has made plans 
to implement the May 2003 DBT. If that DBT changes, 
particularly raises the level of security requirements, they 
will have to revise their plans. And, again, we are pushing 
back implementation.
    Mr. Shays. How would you evaluate the ESE efforts to 
implement security criteria under the new DBT?
    Ms. Nazzaro. At this point, they have developed plans, they 
have put money in the 2005 budget request, with the exception 
of one department, so they are moving forward.
    Mr. Shays. How can ESE reduce the time it will take to 
implement the new DBT?
    Ms. Nazzaro. Our one major concern is that they do not have 
a structured coordinated plan, and we think that could be a 
significant implementation factor given the number of 
organizations that are involved and need to be coordinated. So 
we would like to see a fully resourced, structured, strategic 
plan that would also include NNSA.
    Mr. Shays. So would that be the same answer to this 
question: What do you think it is going to take for ESE to 
reach full compliance with DBT?
    Ms. Nazzaro. Yes, I would say that is probably one of the 
primary factors.
    Mr. Shays. Why is it important for DOE to report regularly 
on DBT implementation?
    Ms. Brian, I would like you to respond to this as well.
    Ms. Nazzaro. Well, one of our concerns certainly is whether 
the implementation will be fully funded, and I think the funds 
are going to come from the Congress. So we feel that they need 
to be reporting to you on the progress they are making, the 
adequacy of those plans, and the funds that they need to 
support the plan.
    Ms. Brian. In addition, I think the fact that they have to 
report means it remains on the priority list of things that 
they are worrying about, knowing they have to come back and 
answer to you, and I think that is why it is critically 
important.
    I also wanted to make one point in the earlier questions 
you were asking. We believe there are some sites that can't 
ever meet the DBT and that need to be de-inventoried and closed 
down. I don't mean closed down, but de-inventoried of the 
category I materials, rather. And there is just real 
hostility----
    Mr. Shays. Please give me an illustration.
    Ms. Brian. Lawrence Livermore. They are not going to be 
able to, where it stands now, meet the DBT, and we believe they 
need to take the category I materials out of that facility. 
Another example is TA-18. And they were already told to do it 
and they still are not doing it.
    Mr. Shays. What should be DOE's top security priority?
    Ms. Nazzaro. Well, at this point, we believe that they 
should revisit the DBT because we want them to do it right. We 
don't want them to just take May DBT and say this is what we 
planned, and let us plan for implementation. We want to make 
sure that what they are putting in place is the right plan. But 
we also believe that once they have that plan in place, that 
there needs to be a department-wide fully resourced coordinated 
plan.
    Ms. Brian. I can give you three top priorities. They need 
to move the materials at Oak Ridge to a bermed underground 
facility, they need to de-inventory TA-18, and get the 
materials out of Lawrence Livermore.
    Mr. Shays. How would you evaluate ESE's organizational 
structure?
    Ms. Nazzaro. Right now, as far as the category I special 
nuclear materials, there is a lot of confusion. We have sites 
where the site is managed by one entity within the organization 
and yet there are materials that are owned by another entity. 
As Ms. Brian mentioned, one of the strategies that we have 
proposed in the past is to consolidate materials, move 
materials to other sites. That is going to require the Office 
of Secure Transportation. So there certainly are some problems 
with implementation. The other issue is that they still don't 
all know who the DBT is going to affect; there is still a lot 
of confusion as to the Deputy Secretary's memo as to who it 
applies to.
    Ms. Brian. I think the biggest problem is there isn't a 
will at the site level. I think someone needs to go down there 
and pick these people up by their shirt collars and shake them 
and tell them to do it tomorrow, or yesterday, frankly.
    Mr. Shays. I would like the professional staff to now ask a 
question.
    Mr. Chase. Ms. Nazzaro, one of the issues that GAO raised 
was the issue of problems with ESE's organizational structure. 
Were you referring to issues dealing with a centralized 
security office? And if you were, can you expand on that?
    Ms. Nazzaro. We did not make a recommendation, but as we 
were going through the last couple months, when you asked us to 
look at ESE, that certainly came to mind as an option, that 
because of the convoluted organization, particularly with 
regard to the category I special nuclear materials. It seemed 
like that would be a prudent structure, to have a centralized 
security force comparable to NNSA's security force.
    Mr. Chase. Did you have a discussion with ESE about that?
    Mr. Gill. We have not directly discussed that issue with 
ESE. We have talked with senior members in the Department, 
senior officials in the Department that have indicated that is 
a possibility. There have been some planning efforts to do 
diagrams of, say, like a matrixed security organization for the 
entire ESE family of program offices.
    Ms. Brian. I am not sure there is really even a reason to 
have a distinction between the NNSA sites and the ESE sites, I 
think there should be a centralized security within the system. 
And we also have been advocating for a long time that 
independent oversight function outside the Department and be 
able to be checking on how it is going on inside the system.
    Mr. Shays. Let me ask regarding improvised nuclear devices, 
I will refer to them as INDs. Why did DOE issue IND 
vulnerability guidelines after the new DBT was released?
    Mr. Gill. The guidelines for INDs are actually part of the 
May 2003 DBT. A special annex in the 2003 DBT established a 
team to go out and look at sites IND vulnerabilities. That team 
took some time to meet, gather data and analyze that data, and 
issued their report in April 2004. It was a several month 
period that they did this investigation.
    Ms. Brian. I would add that I don't think we would be 
talking about INDs today if this subcommittee wasn't taking the 
leadership in starting to require people to address the 
concerns,
    Mr. Shays. How will the addition of IND guidelines affect 
DBT implementation plans?
    Ms. Nazzaro. Well, at this point there is still not total 
clarity as to what those guidelines mean. Some of the sites 
still don't feel that they know whether the DBT applies to them 
or not, and so that is going to impact the development of their 
plans and the ultimate implementation of the DBT. Even the 
Office of Oversight has said that further guidance is needed.
    Mr. Shays. Let me just ask this question. What is the root 
cause for the security issues raised by the recent inspections 
of Argonne National Lab West and Idaho National Engineering and 
Environmental Laboratory sites?
    Mr. Gill. Mr. Chairman, Argonne West, if you go by the OA 
inspection reports, which they had three in as many years, has 
shifted responsibility from a variety of program offices. There 
is currently not a Federal safeguard and security manager at 
that site; it is managed by the University of Chicago, where 
across the street INEEL is managed by a division of BWXT and 
has an onsite Federal safeguards and security manager. So even 
though the two sites are immediately adjacent to each other, 
they are managed as two different sites. The solution to that, 
and the Department of Energy has actually put that into motion 
now, is to consolidate those two facilities under a single 
contract with a single contractor into the Idaho National 
Laboratory. And then, too, that would firmly be a part of NE, 
Nuclear Energy Science and Technology. When they can 
consolidate that, that will provide a solution to some of their 
issues, their primary issues for security.
    Mr. Shays. I would be interested to know, Ms. Nazzaro, what 
statements Ms. Brian has made that you might take issue with or 
qualify. During the course of her responding to questions, was 
there anything she said that you would have taken issue with or 
just want to qualify?
    Ms. Nazzaro. Probably the only thing that comes to mind, 
because we certainly agree that DOE needs to take some action 
with consolidating materials, possibly even moving them from 
some sites, even consolidating within sites, one area that we 
don't see problematic right now is Mr. Podonsky's shop. 
Regarding the recommendation that be moved outside of DOE, we 
don't see a concern as far as independence or a lack thereof.
    Ms. Brian. If I could just elaborate on my point there. 
That has been a longstanding concern of ours, not because of 
the work of that office currently. My concern is that Mr. 
Podonsky is not always going to be the head of that office and 
Secretary Abraham is not always going to be the Secretary of 
that office. So at the moment I don't think we do have the 
problems that we saw in the past from that office and that I am 
afraid we are going to see in the future. Right now I think it 
is working very well, but I am worried about when you have 
independent oversight, but they are not really independent, 
they are right inside working for the Secretary.
    Mr. Shays. Well, is your comment basically, given the 
existing personnel, it works, but you are not sure under 
different personnel it might not work as well? Is that your 
point?
    Ms. Brian. Well, when you look structurally at how it is 
set up, it is really not independent; I mean, the budget is 
based on the Secretary's discretion. That is right. And 
historically it hasn't worked as well.
    Mr. Shays. So the answer is yes. In other words, it is 
working now only because you have confidence in the people.
    Ms. Brian. That is right.
    Mr. Shays. OK.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I certainly appreciate 
yours and Chairman Shays' hard work on this very important 
issue in calling these series of hearings.
    Chairman Shays said in his opening statement--I was at 
another hearing, so I did not get to hear it, but he says, in 
answering the vexing question how much security can we afford 
becomes even more difficult when evaluating the cost-benefit 
yield of capital improvements and security enhancements, and he 
is talking about decommissioned facilities, but it made me 
think back to a comment that came a few days after the original 
September 11 tragedies. I was eating out with former 
Congressman Sonny Callahan and several other Members, and 
Congressman Callahan was a senior member of the Appropriations 
Committee, and he said that he estimated we would spend a 
trillion and a half dollars over the next 5 years on security 
measures that we wouldn't otherwise have done. And nobody 
really challenged him, including me, but I thought at the time 
that was awfully high. But since then I have begun to wonder, 
because just a few weeks ago Federal Express, just one company, 
I know they are a big company, but they told me they had spent 
$200 million since September 11 on security improvements. And 
when you start thinking about all that the Federal Government 
has spent, all that the State governments, the city 
governments, county governments, all the private companies, I 
mean, it has just got to be a mind-boggling figure.
    And I assume that none of you have a figure on exactly how 
much we have spent on security in the almost 3 years since 
September 11 at these five facilities, but I would appreciate 
it if you would get those figures for me, if you would ask 
those facilities how much they have spent on security 
enhancements and improvements since that September 11 incident, 
at the five facilities that we are emphasizing in this hearing. 
If I am wrong, if somebody has those figures, now--do any of 
you have those figures?
    Ms. Nazzaro. The only number we have is what is in the 
fiscal year 2005 budget for ESE; they are asking for $397 
million.
    Mr. Duncan. Well, that wouldn't be what I am asking.
    Ms. Nazzaro. Are you asking for money spent since September 
11th.
    Mr. Duncan. You know, former Governor Gilmore, who chaired 
the Commission on Terrorism, on the threat and what to do about 
it, after extensive investigation into the threat, he sent a 
cover letter on the report, a cover letter to the President, 
and he said there will never be a 100 percent guarantee of 
security for our people, the economy and our society. We must 
resist the urge to seek total security; it is not achievable 
and drains our attention from those things that can be 
accomplished. And I remember reading a few months ago, in the 
National Journal magazine, and I think almost anyone familiar 
with that magazine would say it is one of the most nonpartisan 
publications that you could come up with, and they said in this 
article that we are many thousands of times more likely to be 
killed by a car wreck or cancer or a heart attack than we are 
to be killed by a terrorist event, and that we are more likely 
to be struck by lightening than killed by a terrorist.
    And I am not saying that we shouldn't do anything about it; 
we need to do as much as we possibly can, especially at nuclear 
facilities. On the other hand, at the Federal level, we always 
have a tendency to overreact to any problem because every 
agency or department always wants more money, and so they shout 
very loudly about the problem they are dealing with and the 
contractors that deal with that department or agency always put 
pressure on for more money. And yet I remember the Wall Street 
Journal had an editorial after we passed the farm bill, and 
they said it was ridiculous that we had renamed it the Farm 
Security Act, and they pointed out that almost every department 
and agency in the Federal Government was using the threat of 
terrorism and the word security as a means of getting more 
money for whatever department or agency.
    All I am saying is this, I go back to what the chairman 
said, the vexing question of how we evaluate the cost-benefit 
yield and so forth. And it is a difficult question. I remember 
hearing on NPR News one morning a few months after September 
11, and they said the new Department of Homeland Security, 
which was just a few months old at that time, already had some 
figure like 3,782 devices or security-type measures; and I know 
going through those must have been an extremely difficult job.
    But how do we achieve that balance? You know, Government 
has to do many other things besides fight terrorist or the 
security threat, and I am assuming that while things can always 
be better and you always can do more and you always need to 
seek improvements, I am assuming that security is much better 
and much improved in the almost 3 years since September 11. Ms. 
Brian might not, but would all of you agree that we have gotten 
a little something for all the money that we have spent and all 
the time and attention that has been devoted to it? I mean, I 
would be shocked if you would tell me that security is not much 
better now than it was at the time of September 11.
    Ms. Nazzaro. I would say it is not even across the DOE 
sites. DOE did take immediate steps after September 11th, and 
as security levels changed from red, yellow, orange, DOE has 
reacted appropriately and changed their SECON levels, which 
brought on more guard forces and changed the access to the 
facilities. Our concern is that, with the current DBT, we feel 
that they have not identified really what the risks could be. 
What we would like to see is that they develop a DBT that 
accurately portrays the risk and then they make a determination 
of changes needed. If it's funding constraints or whatever the 
constraints may be, that should be identified. It may be the 
technology isn't there.
    Mr. Duncan. Well, you are not really answering exactly what 
I asked. You are giving a good answer, but what I am asking is 
are you telling me that none of these five facilities that we 
are emphasizing, are you telling me they haven't greatly 
increased security since September 11, 2001? Because when I go 
out and visit Oak Ridge, which is not in my district, but which 
is just a few miles, half the people that work at Oak Ridge 
live in my district, and they tell me all kinds of things that 
they have done in regard to security since September 11 to 
greatly increase it. And you are sitting here telling me that 
these facilities have not greatly increased security?
    Mr. Gill. Mr. Duncan, at any DOE site, there are more guns, 
guards, and gates there than there were prior to September 11. 
There has been more money spent and DOE, for example, in fiscal 
year 2005, they will spend well over $1 billion on security out 
of a $21 billion budget. The Department of Energy has increased 
its security measures, but there have been some negative 
aspects of those too, and primarily, as people have talked 
about today, in terms of protective force overtime, and lack of 
training. But whereas DOE sites have increased their measures, 
how do those measures help mitigate a greatly increased design 
basis threat. At some places they might be able to meet the 
threat today; at other places it is either unknown or they have 
a considerable way left to go.
    Mr. Duncan. Well, I will say this. It is not just a bunch 
of untrained guards that have increased security, I mean, all 
the people at the highest levels. I know this is true at Oak 
Ridge. Now, honestly, I don't know about these other 
facilities, but I would be greatly surprised if it is not the 
same at these other facilities. The leaders at those facilities 
have spent a lot of time and given a lot of attention to 
security-related matters since September 11, 2001, and those 
are some of our most brilliant people that we have in the 
country.
    Mr. Gill. I share that feeling with you, that as we visited 
sites and we went to 10 different places over a couple of 
years, including Y-12, twice, we never had any question about 
peoples commitment. We believed that people were doing as good 
a job as they could with the resources they had.
    Mr. Duncan. Let me ask one last question, since I was 
interested in the money and you did come up with this figure of 
a little over $1 billion out of the $21 billion. What would 
have been that comparable figure if you had been asked that 
question at a hearing prior to September 11, 2001? Are we 
spending twice what we were then, three times, four times? Do 
you have any kind of estimate?
    Mr. Gill. I don't, and I would have to defer to DOE for 
those exact numbers. The funding has increased. NNSA's 
safeguard security funding, for example, has gone, over the 
past couple of years, from about $500 million a year to over 
$700 million. ESE's has been a little bit different because 
they have been in the process of closing some facilities. I 
don't have an exact number on hand, but especially within NNSA 
it has been substantial.
    Mr. Duncan. And those have been years of 2 to 3 percent 
inflation, too, so a lot of the agencies have not received huge 
increases.
    Thank you very much, Mr. Chairman.
    Mrs. Brian. Congressman, if I could just respond to the 
concerns you had about funding, Mr. Duncan. Actually, our 
recommendations would be saving money rather than costing more 
money; that often spending money on security is money down the 
drain, and that by consolidating the number of facilities that 
you have to protect at the highest levels, you don't have to 
have that many facilities across the country, reduce the number 
of facilities. Those that remain open without category I 
materials would dramatically reduce the funding need for 
security in the future.
    Mr. Turner. Thank you.
    Before we close this panel, I will ask if any member of the 
panel has anything else they would like to add in closing. If 
not, then we thank you for your testimony today, and we will 
turn to panel two, which will include David Garman, Under 
Secretary, Office of Energy, Science and Environment, 
Department of Energy; and Glen Podonsky, Director, Office of 
Security and Safety Performance Assurance, Department of 
Energy.
    Gentlemen. In this committee we do swear in our witnesses, 
so I would ask you if you would stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
responded in the affirmative, and we also note that several 
members of your staff who are present who might be called on by 
you to add additional information did stand and take the oath.
    We will start with Mr. Garman.

STATEMENTS OF DAVID GARMAN, UNDER SECRETARY, OFFICE OF ENERGY, 
  SCIENCE AND ENVIRONMENT, DEPARTMENT OF ENERGY; AND GLENN S. 
 PODONSKY, DIRECTOR, OFFICE OF SECURITY AND SAFETY PERFORMANCE 
                ASSURANCE, DEPARTMENT OF ENERGY

    Mr. Garman. Thank you. I would like to thank the chairman, 
the subcommittee, and the General Accounting Office for their 
attention to the subject of this hearing. We welcome this 
oversight; it adds tremendous value to our efforts to ensure 
that we are taking the security of our sites as seriously as 
possible, and, to put it bluntly, this is an area where failure 
is not an option. And, at the same time, I agree with what has 
been said here this morning, we are not yet where we need to be 
with respect to security. So, again, Mr. Chairman, to you, your 
staff, and to the General Accounting Office, our thanks.
    Of course, in the time since this subcommittee held its 
last hearing on this matter, Secretary Abraham announced 14 
security initiatives to further enhance security across the DOE 
complex. These initiatives are detailed in the testimony 
submitted by Mr. Podonsky, so I need not comment on them 
further other than to say that NNSA, ESE, and the Office of 
Security and Safety Assurance are working diligently to 
implement them. It is safe to say that at no time has security 
been taken as seriously at DOE as it is being taken today and, 
given the events of September 11, that is as it must be.
    In a prior hearing you heard from the Director of NNSA, so 
I will focus on the sites managed by the rest of the 
Department, which we refer to as Energy, Science and the 
Environment [ESE]. As you know, we have category I quantities 
of special nuclear material at five of the ESE sites under my 
line management authority: Hanford, the two sites in Idaho, Oak 
Ridge, and Savannah River. While the category I special nuclear 
material at each of these sites is securely housed in robust 
storage facilities, we are continuing our efforts to further 
consolidate or eliminate that material.
    Turning now to the specific recommendations in the GAO 
report. The first recommendation involved evaluating the cost 
and effectiveness of existing security conditions. Every ESE 
site has been operating at an enhanced level of security since 
September 11, and at the time GAO was collecting data for its 
report, we had not yet analyzed the added benefits of the 
security enhancements implemented under the various security 
conditions [SECON] levels. Since that time, we have conducted 
vulnerability assessments at the five ESE sites possessing Cat 
I special nuclear materials and found that the enhanced 
security measures do provide additional security against covert 
introduction of large vehicle bombs and other infiltration into 
the site. However, we continue to refine our manpower-intensive 
approaches to security.
    The second, third, and fourth GAO recommendations involved 
the re-examination of the May 2003 design basis threat. As has 
been mentioned this morning, on May 6, 2004, the Deputy 
Secretary directed that such re-examination be undertaken with 
particular emphasis on the GAO recommendations. ESE is actively 
and fully participating in this effort, and Mr. Podonsky's 
testimony provides further details on that point.
    The fifth and sixth GAO recommendations pertain to the 
implementation of the 2003 design basis threat. We have now 
prepared implementation plans for each of the ESE sites 
possessing category I special nuclear material. These plans 
have been reviewed and approved by the respective program 
offices; they are currently under review in the Office of 
Security. These are aggressive plans designed to bring all 
sites into compliance with the May 2003 DBT by the end of 
fiscal year 2006. This will be a challenge, but that remains 
our goal. Fiscal year 2004 and 2005 funding has been 
identified, and it is our intent that the fiscal year 2006 
budget we will propose to OMB will be sufficient to complete 
all necessary actions by the end of fiscal year 2006.
    The Deputy Secretary's classified memorandum of April 5, 
2004, did direct a change in protection strategy for some 
storage locations at some of our facilities, and I know that is 
a matter of concern to GAO. Vulnerability analyses are still 
underway that will likely require us to make some adjustments. 
Nevertheless, the Secretary's goal that we fully implement the 
DBT by the end of fiscal year 2006 remains in place.
    You might ask is this a moving target, and how will we 
chase it? I would respond that this is an iterative and 
continuing process. I know the Secretary, the Deputy Secretary, 
the NNSA Director and I, as long as I serve as Acting Under 
Secretary, will remain engaged in this issue, which leads me to 
the final GAO recommendation concerning quarterly reporting, 
corrective actions, and the identification of high risk sites. 
I will assure you that I will personally review the quarterly 
reports, and will take actions to ensure that we are making 
progress against our goals.
    With that, Mr. Chairman, I will stop and welcome any 
questions you might have either now or in the future. I am 
mindful of the fact that this is not a single hearing, but a 
process of continuing oversight, so I will look forward to 
working with you, the subcommittee and staff in the future.
    Thank you.
    [The prepared statement of Mr. Garman follows:]

    [GRAPHIC] [TIFF OMITTED] T7131.025
    
    [GRAPHIC] [TIFF OMITTED] T7131.026
    
    [GRAPHIC] [TIFF OMITTED] T7131.027
    
    [GRAPHIC] [TIFF OMITTED] T7131.028
    
    [GRAPHIC] [TIFF OMITTED] T7131.029
    
    [GRAPHIC] [TIFF OMITTED] T7131.030
    
    [GRAPHIC] [TIFF OMITTED] T7131.031
    
    [GRAPHIC] [TIFF OMITTED] T7131.032
    
    [GRAPHIC] [TIFF OMITTED] T7131.033
    
    [GRAPHIC] [TIFF OMITTED] T7131.034
    
    Mr. Turner. Thank you.
    Mr. Podonsky.
    Mr. Podonsky. Thank you, Mr. Chairman and members of the 
subcommittee. I too want to echo Mr. Garman's thanks for 
holding this hearing on this very important subject, and also 
thank you for inviting me to testify once again.
    Since my last appearance before you on April 27, the 
Secretary has announced 14 security initiatives. These are 
initiatives that are tangible expressions of the Secretary's 
commitment to the security of the special nuclear material and 
other national security assets entrusted to the Department. I 
address these initiatives and the actions we are taking to 
respond to them in more detail in my written statement.
    I would like to take this opportunity to highlight some of 
the steps we have taken and some of the immediate plans we are 
implementing to make these initiatives a permanent part of the 
security in the Department of Energy.
    We have begun to review our design basis threat. A multi-
discipline team has been formed and our Office of Intelligence 
has also already completed and delivered to that team a recent 
intelligence data that will assist them in ensuring that the 
DBT reflects current intelligence community understandings of 
the terrorist threat. By August 6th, the team will be prepared 
to present recommendations to the Secretary regarding any need 
changes to the DBT or to its implementing guidance.
    Our cyber security teams and our systems, like everyone's, 
are under constant attack from the Internet. We are committed 
to finding and correcting our vulnerabilities to such attacks 
before anyone else can discover them. Under the Secretary's Red 
Teaming and Cyber Security Initiative, we are aggressively 
attacking our own systems and reporting the results to 
responsible managers. Under this initiative, our Cyber Security 
Oversight Office has already completed a Red Teaming assessment 
of one major site, and has already begun an assessment of 
another. These efforts will assist us in understanding exactly 
how attractive a target we represent, how we might be attacked 
in the future, and let us make any adjustments necessary to 
continue effective cyber operations in spite of these ongoing 
attacks.
    We are very focused on consolidation of special nuclear 
material. If we can achieve a significant level of 
consolidation, we can be more efficient in both operations and 
security. A few months ago the Department formed a 
Consolidation of Materials Task Force to identify opportunities 
to relocate and consolidate special nuclear materials. They 
have already compiled and consolidated a list of excess 
material, a difficult and necessary step toward a comprehensive 
consolidation plan. In August, they will issue a report 
identifying short-term, which is 1 year, and long-term, beyond 
1 year, options for consolidation and relocation. We are making 
progress in this area, but the balancing of programmatic cost 
and risk against security-related cost and risk is especially 
difficult. While everyone wants to see this effort finalized 
and implemented, we must allow adequate time to prepare a 
comprehensive plan that is prudent and affordable.
    The Department has been concerned for some time that our 
Federal and contractor security experts were approaching 
retirement more quickly than new personnel could be recruited 
and trained. NNSA commissioned a group called the Chiles 
Commission, to recommend solutions within the NNSA Federal work 
force. That March report has identified a number of actions to 
address these issues with the NNSA Federal work force. The 
Secretary has directed that recommendations be considered for 
implementation among the remainder of the Federal security work 
force and applied as appropriate to contractor security workers 
as well. In support of this effort, our National Training 
Center, in Albuquerque, has been tasked to identify course and 
curriculum development actions that could provide better 
professional training for security specialists and managers. 
Their proposal is due on June 30th of this year.
    I believe that the Department has not been as effective as 
it needs to be in deploying security technology to increase the 
effectiveness and efficiency of our protection efforts. This is 
not to say that we have not fielded some very useful 
technologies in the past. We have made innovative use of robot 
safes for S&M protection, special designed security doors, 
infrared devices, pressure sensitive intrusion sensors, and 
many more. Today we are working on activated denial system 
using non-legal levels of microwave energy that would make it 
impossible for adversaries to remain in the area, providing a 
great assistance to our implementing a denial strategy.
    We are developing acoustic detective systems to improve our 
ability to inspect vehicles and large containers, and we are 
working with DOD to utilize some of their technology to produce 
beyond-the-fence early warning sensors that will scan areas 
beyond our perimeters to provide early warning of an attack. We 
are also investing in remotely controlled weapons that can be 
positioned in critical areas and operated by personnel located 
in hardened shelters where they are less susceptible to 
adversary fire. We continue to work on improved chemical agent 
countermeasures such as chemical agent detectors, chemically 
hardened patrol vehicles, and chemically hardened protective 
force ready rooms.
    Since I last appeared before you, our Independent Oversight 
Office has completed three special reviews covering protective 
force management and capabilities, security lock and key 
programs, and security incident reporting programs. While these 
reviews began some time ago, they will influence many of the 
actions taken to address the Secretary's initiatives, 
particularly increasing training and standards for the 
Department's protective forces to an elite force and the 
increased use of keyless security entry systems and other 
technologies.
    The Department is committed to real progress in every area 
of this security program. And, Congressman Watson, we are being 
more innovative and we are thinking out of the box now. But 
words and commitments are easy. Action is what counts. Today I 
have briefly described not only our plans and commitments, but 
also real actions taken and real progress made. I am confident 
that these, although significant, are just the beginning. 
Secretary Abraham has provided us with a vision for the future 
and expects us to make that vision a reality.
    With me today, who I had stand up at the swearing in, I 
have the Director of Security, Marshall Combs; I have the 
Director of Oversight, Mike Kilpatrick; I have the Office 
Director that was responsible originally for helping put the 
design basis threat together, who also co-chaired the special 
annex team, Larry Wilcher; and also Senior Physical Scientist 
Advisor, Dick Donovan.
    Thank you.
    [The prepared statement of Mr. Podonsky follows:]

    [GRAPHIC] [TIFF OMITTED] T7131.035
    
    [GRAPHIC] [TIFF OMITTED] T7131.036
    
    [GRAPHIC] [TIFF OMITTED] T7131.037
    
    [GRAPHIC] [TIFF OMITTED] T7131.038
    
    [GRAPHIC] [TIFF OMITTED] T7131.039
    
    [GRAPHIC] [TIFF OMITTED] T7131.040
    
    [GRAPHIC] [TIFF OMITTED] T7131.041
    
    [GRAPHIC] [TIFF OMITTED] T7131.042
    
    [GRAPHIC] [TIFF OMITTED] T7131.043
    
    [GRAPHIC] [TIFF OMITTED] T7131.044
    
    [GRAPHIC] [TIFF OMITTED] T7131.045
    
    [GRAPHIC] [TIFF OMITTED] T7131.046
    
    [GRAPHIC] [TIFF OMITTED] T7131.047
    
    [GRAPHIC] [TIFF OMITTED] T7131.048
    
    [GRAPHIC] [TIFF OMITTED] T7131.049
    
    [GRAPHIC] [TIFF OMITTED] T7131.050
    
    [GRAPHIC] [TIFF OMITTED] T7131.051
    
    Mr. Turner. Thank you, Mr. Podonsky.
    We will go through a 10-minute questioning period.
    It strikes me, when you look at the title of this hearing, 
``Nuclear Security: Can DOE Meet Facility Security 
Requirements?'', that we would not likely have a hearing that 
says DOE, too much security? So when we talk about the fact 
that at these particular facilities, that there is no margin 
for error, and that the support that you have for increased 
security is overwhelming, we want to make certain that if we 
are going to err, we err on the side of securing these 
facilities too much to meet whatever might face them. And no 
one is questioning DOE's commitment to this issue; it certainly 
is an issue of process and resources and decisionmaking.
    Mr. Podonsky, I have a series of questions for you 
concerning this process of security-making decisions. You 
mentioned the design basis threat and the current review 
process that you are going through. Recognizing that the 
current design basis threat was written before you took over, 
the security policy functions, do you think the current design 
basis threat is robust enough?
    Mr. Podonsky. First, Congressman, thank you for asking me 
that question because, as you know, just 4 or 5 months ago, I 
was the director of Independent Oversight. I am on the record 
as criticizing the process of the Department's design basis 
threat. I am on the record as also criticizing the level of 
protection for INDs versus full-up weapons. Now that I am in 
charge of that policy organization, I would also tell you that 
we welcome the Secretary's initiative to have us take another 
look at the design basis threat; that was very necessary. In 
fact, I would tell you my policy organization, when it 
submitted its recommended design basis threat to the Secretary, 
Secretary Abraham himself raised the level up a couple of 
notches in terms of the numbers, without getting into 
specifics.
    So I think it comes at a time that there needs to be an 
edited process, not a long bureaucratic one, but in today's 
threat that is looming on all of us every day, our families, 
our loved ones, our coworkers, it is vitally important that we 
get to what is the right level of protection that we need. And 
so the short answer would have been yes, I think it needed to 
be more robust. The longer answer is the Secretary recognizes 
that, and that is why he is having us take another look at 
this. And it is not just to review it and it is not a 
bureaucratic sense; we have an interagency group that is 
looking at other agencies. We have the intelligence briefings 
again, as recently as last Friday. So this is very active, it 
is not just standing there waiting for the next shoe to drop.
    Mr. Turner. I would like to also ask your thoughts, then, 
about the issues that we are hearing about the strain on the 
security forces, overtime, issues of training, equipment. 
Obviously we are hearing the long work hours that affect 
effectiveness. Could you speak to that?
    Mr. Podonsky. This concerns us as well, and a big part of 
this is part of the clearance process, getting the right 
security force on board, the numbers. But, Congressman, what we 
really think, it means that we need to have increased training; 
we have to have more technology applied. And let me just talk 
about technology. If we had more technology applied today--and 
there is technology on the shelf. This is not stop and study 
it, these technologies are there--we can apply technologies, 
both developed for DOD as well as technologies developed in 
DOE, and help become force multipliers. For example, if you 
indulge me, I would like to give you an example. If we have a 
security member that is in a hardened position, that member, 
according to military doctrine, would be able to fight off a 
higher number, say seven or eight, attackers. If they are not 
in a hardened position, it becomes a shootout. And we think 
applying technology, increased weaponry will help reduce the 
strain on the existing force, because right now we are going 
forward with my army is bigger than yours. And SSA, our newly 
created office, what we want to impress upon the Department is 
not that my army is bigger than yours, my army is more 
technically qualified, competent with equipment, and trained 
properly, so we don't necessarily need the larger numbers of 
security forces, but a much more modern security force, an 
elite force, as the Secretary referred to in his May 7th 
announcements.
    Mr. Turner. Now getting to my favorite pet issue of the 
coordination between DOE and DOD. I appreciate your comments 
about additional technology equipment barriers that are being 
provided to the security forces. We frequently, in this 
discussion, hear the issue of gates, guns, and guards, and what 
would be the adequate sufficient number; and then the issue 
arises, as you have been discussing, of what technology would 
be appropriate to both make them more effective, safer, and 
lower the overall burden.
    And recognizing that the security forces that are there are 
highly trained and are doing an excellent job at what they have 
been asked to do, it does strike me, whenever we look at this 
or whenever we have toured one of the facilities or discussed 
one of these facilities, that there does appear to be a limit 
as to what these security forces would be permitted to have 
with respect to equipment and technology, and that there is 
equipment and technology that would be available to DOD that 
would not be available to these security forces. Could you 
comment on that?
    Mr. Podonsky. One of the initiatives that we are moving out 
post-haste on is on the technology. There was an initiative 
that the Secretary called the Blue Sky technology project that 
Ambassador Brooks and I are teaming up on. Where we are moving 
out specifically is that my Security Office that Mr. Combs is 
director of has for many years utilized the laboratories for 
development of technologies. We are moving out to develop a, I 
don't want to call it a center of excellence, the Department 
uses that term too frequently and oftentimes is not a center of 
excellence at all, but we are moving out to develop a program 
where we put this technology, deploy it at sites right now. We 
are looking at technology being deployed at Pantex and at Y-12 
as we speak. Technology has to be in the field to help the 
security forces today; not tomorrow, today. And we have the 
technology and we are applying that.
    And I keep on coming back to the training as well. The 
training in the department for the security forces, as well as 
the white collar security professional, has been abysmal for 
the last 15 years. There hasn't been enough focus on that. Now, 
you may ask, well, why would we wait to train? Well, we have to 
train the security forces and the security managers to do their 
jobs, what they get paid to do, but we need to raise the bar in 
their training, we need to combine that with the technology so 
that would help improve immensely those security forces, it 
will improve the overtime issues. It is all linked together. 
God forbid we call it a strategic plan.
    Mr. Turner. Mr. Podonsky, I appreciate your comments in 
answering my question concerning training and technology, and I 
know we don't want to go into, in this type of forum, a great 
deal of detail, but at the same time I remain concerned about 
the coordination between DOE and DOD, and the aspect of my 
question that you did not respond to is the issue of equipment. 
There is equipment that is not available to the security forces 
that is available through DOD. Isn't that correct?
    Mr. Podonsky. I believe there is some to that, yes.
    Mr. Turner. And that is where my concern comes, because I 
do believe that in this process of the design base threat, that 
there are bureaucratic walls where people do not allow 
themselves to pursue options because they would exceed the 
authority of the security forces that are there or the issues 
would be outside of the control purview of DOD. And I would 
just encourage you in that process not to look at those walls 
as impediments, but as opportunities.
    Mr. Podonsky. Congressman, if I might comment. You are 
correct, there needs to be better coordination between all the 
executive branch agencies in this regard, and both the 
legislative arm of Government as well as the executive branch 
is going to have to hold me back from kicking down those walls, 
because we don't believe in my SSA office that we have any time 
given to us. There is no error of margin allowable, and we have 
to move out. And I give credit to the Secretary. I have served 
seven secretaries, and this secretary has been very aggressive 
in security matters, and none like I have ever seen before. I 
am not a political, I am a career person, and I fervently 
believe that with the attention of this committee and a few 
other committees, as well as the attention of this Secretary, 
we will be able to break those barriers down, and not just 
through talk, we are going to do it through action, and we have 
already begun.
    Mr. Turner. Thank you.
    Ms. Watson.
    Ms. Watson. As you address these various areas of concern, 
how are you going to affirm the effectiveness? Do we have to 
wait for an attack? Will you simulate various threats and 
attacks? How are we going to know if these new methods are 
going to be effective?
    Mr. Podonsky. Congresswoman Watson, currently we have an 
Office of Independent Oversight, and the operative word is 
independent; it does not have any financial connections to the 
other parts of the Department. Yes, it does report to the 
Secretary through my office, and that is an office that I ran 
for 20 years. And we have written about the performance of the 
Department on every subject, environment, safety, health, 
safeguard security, cyber security, emergency management; and 
all of those reports are very pronounced in terms of the 
actions that the Department must take. We will continue in a 
very robust fashion to have that office test all the sites, Mr. 
Garman's sites and Ambassador Brooks' sites.
    We do not pull our punches, and if you are exposed to any 
of our briefings or any of the results of those inspections, 
you will see that we are extremely critical where we need to be 
on the Department. Oftentimes the Department corrects the 
problems, and then there are times that it does not correct the 
problems, and for the last at least 12 years I have been coming 
up to Capitol Hill, briefing the various subcommittees on the 
results of those inspections.
    What we have just completed right now in post-September 11 
is a nationwide review of all of the protective force, because 
we wanted to, as you said in our last hearing, think out of the 
box. What are these protective forces thinking? What is the 
morale? How are they dealing? How are they going to deal when 
real bullets fly, as opposed to just laser tag. And so we just 
finished that report; we are going through that now, and we are 
going to be sharing that with the 200 secretaries and the 
deputy secretary. And that, we also believe, will contribute to 
what I was just saying before with Congressman Turner, to the 
training as well as the technology, how do we make these 
security forces better to protect the resources that they have 
at their command.
    Ms. Watson. Certainly we have the oversight, but we don't 
always get all the information, and I have taken on the role in 
my district, since I represent the largest city in California, 
and California has a lot of strategic ports, to carry 
information back to the people that are going to be involved 
and they have a responsibility too should there be an attack or 
whatever, but I don't feel that we really have had an 
opportunity to provide that oversight.
    So I would like to hear from you how would you place what 
you feel are the real problems that we need to go after here, 
at this level, in terms of the whole system, the whole threat? 
How would you rank the problems that we should address?
    Mr. Podonsky. Well, again, this is my personal and 
professional opinion.
    Ms. Watson. That is what I am asking for.
    Mr. Podonsky. OK. And I would just say that it is long 
overdue that both the executive branch and the legislative arm 
of Government work hand in glove to oversee the security of the 
United States. Now, we have done that through the creation of 
Homeland Security; we have done that through recognition that 
the intelligence community needs to work better together with 
the FBI, etc. And I am not qualified to talk about all those on 
a professional level other than my personal opinion. What I 
have seen is there is a human factor problem, and that is we in 
this country sometimes have a short memory, Congresswoman, 
about all that happened on September 11. Right after September 
11, we were all very wrapped up on what we needed to do, and 
over time we tend to forget that it is someplace else. And what 
we see everyday in the news and what is happening in 
Afghanistan and Iraq is very real. We have a war going on, and 
in order to protect cities like yours that you represent, there 
needs to be a check and balance on what the local authorities 
are doing in concert with the Federal Government, and there 
needs to be more of a collegial working together to solving the 
problems.
    I realize that doesn't give you any specificity, but it is 
a beginning. And right now I don't think that we have that same 
drive universally around the country to fight terrorism except 
when it is right in front of us right that moment, and we 
should be prepared now, which is why the oversight of DOE, and 
I again compliment Secretary Abraham, he puts a lot of 
confidence in the oversight function and he puts a lot of 
confidence in the security operation that he has just now 
created, SSA, to make a difference and to move the ball forward 
in all these areas that are needed that we heard this morning 
from both GAO and from the executive director of POGO.
    Ms. Watson. Well, maybe, Mr. Chairman, this committee 
should ask for the Secretary to give us an update on priorities 
and if there is a line item for budget going to be required. I 
am very compelled about the lack of trained staff, for 
instance, and the cost of training and vetting those who have 
been identified. And, you know, these processes do take time. 
Do we have time to meet the need? And so maybe we better, Mr. 
Chairman, this is very good, but maybe we better know where we 
are in terms of addressing these critical points.
    With that, thank you, Mr. Chairman.
    Mr. Shays [presiding]. I thank the gentlelady very much and 
appreciate her important questions and her participation as 
well.
    Mr. Podonsky, I would like you, and then I am going to ask 
the professional staff to make sure we ask some questions that 
we need to get on the record. How would you compare security at 
the weapons sites versus the non-weapons sites? What represents 
the bigger challenge for us?
    Mr. Podonsky. Mr. Chairman, to answer your question, I 
would need to say that both ESE and NNSA both have category I, 
category II special nuclear material. The difference lies in a 
very pronounced difference, and that is NNSA has full-up 
nuclear weapons; ESE does not. However, ESE does have other 
challenges, and that is the reduction and closure of some of 
their sites. So where do they spend the money? For example, 
would they spend money on infrastructure, for example, a 
perimeter intrusion detection system for a site that was 
closing? I would think not. But then they still need to protect 
the material that they have. So the challenge that both 
Ambassador Brooks and Acting Under Secretary Garman face are 
very similar in terms of providing the appropriate security for 
the types of sites that they have, but I would say there are a 
lot of similarities, even though their missions are vastly 
different.
    Mr. Shays. Thank you.
    At this time I will ask Mr. Chase, of our staff, to ask 
some questions.
    Mr. Chase. Thank you, Mr. Chairman.
    Secretary Garman, in your oral statement you said that it 
was your intention to monitor closely the implementation plans 
which are currently still under review. Understanding that, 
what challenges do you anticipate facing when you go about 
implementing these plans?
    Mr. Garman. Of course, we will have the first of these 
implementation plans for the quarter ending June 30th, and they 
will be available prospectively. The problems that we are going 
to face is, of course, that in some areas vulnerability 
assessments at some sites have not yet been completed. Those 
sites would in fact include Argonne East and Brookhaven 
National Lab.
    We are in a new situation where I don't believe we will 
ever reach what I would call security nirvana, where we can sit 
back, relax, and say we have arrived. We are always going to be 
testing the system. We are always going to be trying to find 
where there are new threats, new vulnerabilities that we can 
uncover, and this is going to be a long and ongoing process.
    The difficulty we have with ESE sites is that, in fact, a 
fundamental difference with the NNSA sites that have ongoing 
responsibilities for stockpile stewardship, many of our sites 
are trying to work themselves out of business. We are trying to 
consolidate the material, move it off the site, prepare the 
site for long-term legacy; and, as pointed out, you have to 
make a choice: do I want to spend $10,000 per linear foot for 
an intrusion protection system or do I want to quickly 
consolidate those materials or down-blend them, eliminating the 
threat altogether? That is where we are going to have the 
tussles, and that is where we need to be engaged.
    The conflicts that I foresee between Mr. Podonsky's office 
and some of our online managers will be on this question of, 
and it has been stated here elegantly several times, how much 
security is enough, particularly if you are talking about a 
site that you are trying to close down more quickly. And if the 
perception is that you are taking financial resources to 
provide security that could at the same time be used to 
expedite or accelerate the cleanup of the site, therein we will 
have a conflict, and we are just going to have to work through 
those conflicts.
    We have been able to do a good deal of special nuclear 
material consolidation at Mound, Rocky Flats, West Valley, 
Savannah River, but we obviously have a lot more to do.
    So I would say that is the fundamental conflict I think we 
will see.
    Mr. Chase. As you know, the target date for implementation 
of the 2003 DBT is fiscal year 2006. GAO has indicated, I have 
heard this from folks at DOE, that fiscal year 2006 is probably 
not reasonable. Do you have any thoughts on that? When do you 
really think we are going to fully implement these plans?
    Mr. Garman. We will know more as I see and review the 
implementation plans, but the Secretary and the Deputy 
Secretary have made it very clear to me that they believe 
fiscal year 2006 is what we need to be aiming for. That is 
certainly the requirement that I am going to place on the line 
managers reporting to me. As we review the quarterly 
assessments and understand where we are against those goals, we 
will have a better sense going forward. Obviously, there are 
some factors that I am concerned with outside our control. For 
example, will we receive in a timely way resources we ask for 
in the fiscal year 2006 budget, or will that be subject to 
continuing appropriations under what I think will be lower 
fiscal year 2005 levels? That is unknowable at this point, and 
it certainly is an element outside of my control or our 
control, but those are things that could have a bearing on our 
ability to meet that goal.
    Also, Mr. Podonsky and his folks and others, from our 
Inspector General, are testing us, and we welcome this, trying 
to uncover new vulnerabilities that will teach us something we 
just don't know today, and that could have an impact. But right 
now I am not ready, or willing, to let our line managers off 
the hook for meeting the Secretary's guidance to meet these 
goals at the end of fiscal year 2006.
    Mr. Shays. Mr. Podonsky, I realize that you gave an answer, 
and I am not quite sure I really could tell you what you told 
me, so I want to come back. Which site, the nuclear or the non-
nuclear, present the greatest threat, and why?
    Mr. Podonsky. I understand the confusion in my answer, 
because I was answering my question, not yours. I would say 
that ESE has a tremendous challenge because of the areas that 
Mr. Garman just mentioned in terms of closure and the like, as 
well as NNSA has challenges for their sites. So I don't think, 
Congressman, that I could give you Garman's group or Brooks' 
group as being the greater challenge from our perspective. My 
oversight group has found an equal number of problems at both 
sets of sites. And having said that, we do feel that both 
organizations are attempting at various levels to fix those 
problems. There is a long way to go, I would say, at both 
organizations, both ESE as well as NNSA.
    Mr. Shays. What is your biggest nightmare when you think 
about either these weapons or non-weapons sites?
    Mr. Podonsky. My biggest concern would be, from all the 
years of inspection, would be the weapons sites, with a 
footnote. We do have concerns on what a terrorist may or may 
not do with the materials that are within the borders of Mr. 
Garman's sites.
    Mr. Shays. Do you have strong feelings in the work that you 
do about the need to close down some sites?
    Mr. Podonsky. Yes, sir, I do. I think that the Department 
could in fact take a serious look, and I know it is doing that 
in some sectors, of whether or not the footprint of the 
Department needs to be the size that it is now. So the 
consolidation of material is the first piece where we are 
identifying nuclear materials as excess that should be gotten 
rid of, and the consolidation of material that can be done on 
individual sites, and then perhaps the next step really should 
be whether we do need all the sites that are in the current 
DOE, that would be both NNSA and ESE.
    Mr. Shays. Well, the fact is you know we don't need those 
sites.
    Mr. Podonsky. In my opinion we don't.
    Mr. Shays. Right. But you have been around for how many 
years?
    Mr. Podonsky. Twenty years in August.
    Mr. Shays. And your job is to anticipate what terrorists 
might do and have the antidote to it, correct?
    Mr. Podonsky. My job? Yes, sir.
    Mr. Shays. And so one of the factors in doing that is 
consolidating the footprint of a particular site, getting rid 
of some of the obstructions, which may mean a reduction in 
people in some instances, but in the other instances it would 
actually be the elimination of some sites, correct?
    Mr. Podonsky. That is correct.
    Mr. Shays. Is it fair to say that by having too many 
sites--I am not going to ask you specifically which ones you 
would say were too many, but by having too many sites, that it 
makes us more vulnerable?
    Mr. Podonsky. We clearly increase our vulnerabilities by 
having more targets out there.
    Mr. Shays. And is it also true that if you were to reduce 
the number of sites, that you could be more focused on the ones 
that were left?
    Mr. Podonsky. I think common sense would lead you to that 
conclusion.
    Mr. Shays. Common sense would, and that is why I am almost 
reluctant to ask it, because it is so obvious. But it is a fair 
statement to say that we are not yet spending all the resources 
we need to protect the sites that we have to the level that you 
believe we should protect them, correct?
    Mr. Podonsky. We are not there yet.
    Mr. Shays. So if we had less sites, ultimately there would 
be a short-run increase in expenditures in some cases because 
we would have to consolidate, maybe build a little differently 
in other sites, tear down, so there would be some cost, but in 
the long run, if we consolidate, it would promise significant 
savings plus added security. Is that a statement you could 
agree with?
    Mr. Podonsky. From my perception, yes. But I must qualify 
one piece. I am not intimately familiar with all the 
programmatic aspects of the missions that are at all these 
sites, so that would also have to be part of the consolidation 
consideration.
    Mr. Shays. Mr. Garman.
    Mr. Garman. I just wanted to seek a point of clarification. 
Is the chairman talking about DOE sites generically or sites 
with nuclear material? Because therein lies the difference. 
Consolidation is part and parcel of what the ESE strategy is 
for dealing with this problem: consolidate the nuclear material 
at a smaller number of sites. That doesn't necessarily mean we 
want to eliminate certain sites. We have some sites, such as 
the National Renewal Energy Laboratory, that doesn't house 
nuclear material of any consequence, and I certainly wouldn't 
want them to be alarmed that we were talking about a site 
consolidation or elimination.
    Mr. Shays. I think that is a fair point to make. I think in 
terms of base closings, we have 19 National Guard units that do 
artillery that we have testimony that they are just not needed, 
and yet we have overworked men and women in Iraq because of the 
skills they possess which are needed in Iraq. And I then think 
if someone told me that I had to have five offices in my 
district instead of the two I have, I could do that, but I 
would have to hire half as many people with twice as many 
sites.
    And so what I want to do is bring to the level of dialog 
ultimately--we won't do it at this hearing--and that is when it 
is irresponsible for us to have so many sites both in our 
defense and so many sites in terms of our energy needs and what 
you, Mr. Garman, are responsible, and in terms of Mr. Podonsky, 
that these sites make us more vulnerable if they are not well 
protected. And having seen a few of them, I have seen old 
buildings that need to be torn down that don't have any use, I 
have seen the encroachment of the general public to these 
sites, and I was thinking, you know, the President doesn't have 
a lot of time to think about these things, so he is really 
trusting other people to do it for him. And then I realize 
there are political repercussions, but, you know, national 
security may dictate that we have people who are fairly 
outspoken, who say, you know, we need to do this.
    Is there anything, Mr. Garman, that you would like to put 
on the record that we didn't put on the record?
    Mr. Garman. Only the notion, and I certainly agree with 
this notion of consolidating materials. And we are going to 
need the help of Congress to do that. And also to dispose of 
materials. Plutonium disposition is a chronic problem in the 
Department, and it is something that we have been working on 
for a long time, and we will be working on it for a long time; 
down-blending highly enriched uranium. Consolidating materials, 
obviously, at a smaller number of sites means bringing 
materials such as highly enriched uranium and plutonium into 
sites and adding to the burden that those sites carry, which 
has political implications; it is why States and sites often 
fight us when we try to do consolidation efforts, because they 
say don't bring any more plutonium to our site. And so we will 
need the help of Congress to do this.
    Mr. Shays. Well, you do need the help of Congress to do it, 
but we need to make sure that the folks that work in the 
bureaucracy, and I don't mean that in a bad way, but that work 
in our Government are telling us what we need to do. And I have 
been in public life now 30 years, and I am well aware of if you 
don't force the question, you give us the capability to deny 
knowledge, and then we are not held accountable. And so it just 
strikes me that we just need to make sure we have as honest a 
dialog as we can have. Put the burden on us, then the burden is 
on us.
    Any other comment you want to make, Mr. Garman?
    Mr. Garman. No, sir, other than to again express our 
thanks. You make us sharper by doing this, and we need this.
    Mr. Shays. Well, thank you. Thank you.
    Mr. Podonsky, any comment?
    Mr. Podonsky. Yes, sir. I appreciate that opportunity. I 
would just like to make a comment about the Secretary's 
initiatives. We have heard in testimony today that a lot of 
these initiatives, my terms, are retreads of the past, and some 
of that may be true; some of these initiatives maybe have been 
underway in different points. But again I want to emphasize 
never before have I seen at this agency such enthusiasm and 
focus to improve security as those 14 initiatives that the 
Secretary put forward. So I want to make sure that is clearly 
noted by the committee, that this is not just a retread, it is 
about action, and it is not about the department of plans 
anymore, it is a department of action.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you. I would like to ask you a question.
    I do want to make sure that the Secretary's May 7th 
initiatives don't go unnoticed, and I would like to have a 
little dialog about it. One, it is, I think, a very positive 
step, and we appreciate it. How are we going to track the 
security initiatives? How will we go about doing that?
    Mr. Podonsky. We have set up a number of project teams that 
are looking at the milestones in the project plans for each one 
of these initiatives, and each one of these initiatives are 
supposed to be reported monthly to the Deputy Secretary in 
terms of the progress, and the Deputy Secretary has committed 
to get those briefings on a monthly basis. So this is going to 
be done by the existing corps of Federal employees, and it is a 
cross-representation of both Mr. Garman's organization, Under 
Secretary Brooks, as well as my own.
    Mr. Shays. Tell me, how did SSA get involved in the 
development of these initiatives?
    Mr. Podonsky. Quite a few months ago, Under Secretary 
Brooks and myself were asked, before Mr. Garman was put into 
the acting position, if we could come up with some out-of-the-
box thinking of some initiatives to improve safeguard and 
security throughout the complex, and between our two 
organizations we gave the Secretary a menu of areas to look at, 
and the Secretary personally selected those 14 that he came up 
with, and we all supported those as real and something that was 
doable.
    Mr. Shays. Was there anything left out that you wish had 
been included?
    Mr. Podonsky. No, sir. In fact, there was only one thing 
that I wish I didn't include.
    Mr. Shays. OK, what was that?
    Mr. Podonsky. That was the Federalization of the guard 
force, because that has brought on more questions than I 
envisioned.
    Mr. Shays. Mr. Garman, how are the security initiatives 
affecting ESE sites?
    Mr. Garman. We are a full partner in the implementation of 
these. Tasking memorandum have been developed and sent out. 
Working groups are developing programs of action and 
milestones. Cyber security testing is underway, including at 
our sites. As Mr. Podonsky said, there are monthly reports 
tracking progress that are shared with me. ESE is actually 
leading one of the working groups involved in the consolidation 
of materials. And the Deputy and Administrator Brooks and I 
meet on a weekly basis, actually twice weekly, to go over some 
of these and other items that we have in common.
    Mr. Chase. Very quickly, Mr. Podonsky, in your written 
testimony, you made reference to the Chiles Commission report 
which was commissioned by Ambassador Brooks as it relates to 
the human capital expertise issue. Is there anything in that 
commission report that could be applied to ESE?
    Mr. Podonsky. Absolutely. Admiral Chiles' commission talks 
about the security training and qualifications of both the 
Federal staff as well as the protective force, and the findings 
in that report, while originally focused on NNSA, clearly Mr. 
Garman and his staff will be able to glean some golden nuggets 
out of that, as we in SSA are also taking out and taking very 
seriously, as I talked about in my testimony, in terms of the 
National Training Center in Albuquerque, so that we can raise 
the bar and the availability of training across the board for 
both uniform services as well as for the white collar security 
professionals.
    Mr. Shays. Is there anything else either gentleman would 
like to put on the record?
    Mr. Garman. Thank you, there is one item, and I will have 
to review the transcript to be sure of this, but at one point 
during the prior testimony I thought I heard the GAO witness, 
Ms. Nazzaro, suggest that there were ESE sites that were not 
subject to the DBT, or something along those lines. And I may 
have misheard it, but I think what she was referring to was the 
DBT annex related to IND. I will review the transcript and try 
to be----
    Mr. Shays. Well, why don't we just have someone just real 
quickly put that on the record. Do you want to just step up?
    Mr. Garman. The only clarification I want to make is that 
all ESE sites are subject to DBT.
    Mr. Shays. OK, and that is fine. And we all concur with 
that.
    Mr. Garman. OK. Thank you.
    Mr. Shays. Anything, Mr. Podonsky?
    Mr. Podonsky. No, sir.
    Mr. Shays. And I would just put on the record thank you for 
waiting to take the second panel and just note for the record 
that the first panel has listened to your statements, so I 
appreciate that as well, so it works both ways.
    And I thank both of you, and at this time this hearing is 
adjourned.
    [Whereupon, at 11:25, the subcommittee was adjourned, to 
reconvene at the call of the Chair.]

                                 <all>

</pre></body></html>
